<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:14 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Nelson, Tester, and Alexander.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF LISA P. JACKSON, ADMINISTRATOR


             opening statement of senator dianne feinstein


    Senator Feinstein. Let me begin the hearing. But let me 
begin it with a great apology to my colleagues, to our new 
ranking member, Senator Alexander, to Senator Tester. I sort of 
pride myself on being on time, and the situation just descended 
into chaos. I had to be at a Judiciary Committee, I had to do 
other things, and I really am sorry.
    Madam Administrator, I want to apologize to you, as well. I 
do not like to keep people waiting, and I am very, very sorry.
    So, I hope you will accept my apology, I'll find my glasses 
and we'll proceed.
    Good morning. On behalf of the Interior Appropriations 
Subcommittee, I welcome you to our hearing for the fiscal year 
2010 for the United States Environmental Protection Agency 
(EPA), and I'm very pleased to welcome Lisa Jackson, the new 
Administrator of the EPA, before this subcommittee.
    I also want to welcome Senator Alexander, our new ranking 
member. We've had an opportunity to discuss issues, I find 
myself in align with his thinking, so I really think that we're 
going to work very well together, and that's important. So, 
it's a good thing. So, thank you.
    This is the first hearing we're conducting together. I've 
also had occasion to talk to Senator Tester about his concerns 
and I understand his concerns, in many respects, our two States 
have similar concerns, and so I believe we will work together 
well, as well.
    The administration's fiscal year 2010 request for the EPA 
is $10.486 billion. Now, that's a remarkable 37 percent 
increase over the 2009 enacted level. And it translates into 
nearly $2.9 billion in new funds for environmental protection. 
That truly is a very welcome addition.
    And I'm particularly pleased that the President made a $3.9 
billion commitment to fund water and sewer infrastructure. Most 
people don't know this, but as the most powerful Nation on 
Earth, we have antiquated and deteriorating water and sewer 
infrastructure. I mean, I remember when there was no such thing 
as bottled water. You didn't drink bottled water. There were 
seltzer bottles, that you spritzed, but the water coming out of 
the tap, virtually everywhere in America, was pristine, and 
pure, and as a child, we always drank it everywhere. That's not 
necessarily the case today.
    So, these things are, in fact, very important. And there's 
$2.4 billion for the Clean Water Revolving Fund--that's a $1.7 
billion enacted--over the enacted level. That's a big change, 
because all of our jurisdictions stand in line for these 
revolving loan funds. So that, indeed, is good news.
    And together these funds will build more than 1,700 water 
and sewer projects across the country, and that's an increase 
of 857 projects compared to last year. And that's in addition 
to the 2,000 that will be funded by the $6 billion Congress 
provided through the stimulus bill.
    Now, I have many other things to say about this budget, all 
of them good, all of them positive. I will put the remainder of 
my remarks in the record, and in the interest of time, welcome 
the distinguished Senator from Nebraska, Senator Nelson, and 
turn this over to the ranking member--the new ranking member--
Senator Alexander, for his remarks.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Thank you, Madam Chairman.
    Ms. Jackson, thank you for being here. I can't think of any 
position I'd rather have in this Senate than the one I've got, 
unless it was yours, Madam Chairman.
    But if I had to work with anyone else as chairman, I'm glad 
it's you, because I admire your decisiveness. As a former 
executive, I admire and appreciate that. And we do share views 
about the environment and our feeling that the great American 
outdoors and the natural landscape is an important part of the 
environment that we want to protect.
    I'm excited about this opportunity, as I grew up and lived 
2 miles from the boundaries of our most visited national park, 
the Great Smoky Mountains, which is 75 years old, this year.
    I'll save my remarks for the time that I have to ask 
questions, but here are the subjects that I'll be interested 
in. I hope there's one area, Administrator Jackson, that you do 
act on promptly, and that's the clean air interstate rule for 
the Eastern United States, so we can get certainty about sulfur 
nitrogen and mercury and finish cleaning our air up.
    There's one area I hope you don't act on, and that's on 
carbon, I think that's more appropriately left to the Congress, 
and we can talk about that.
    I'd like to talk to you about clean air hot spots. We had a 
great briefing the other day, Madam Chairman, from Brian 
McLean, when Senator Carper and I were working on dealing with 
legislation that involves sulfur, nitrogen, and mercury--we've 
really made great progress since 1992 on the first two. We have 
the technology now to deal with mercury, but there are a few 
hot spots left in the country where we still have a sulfur 
nitrogen problem, and strategies for dealing with that, and 
protecting our national parks, especially, from the 
consequences of dirty air is something I'd like to talk about.
    And then finally, Madam Administrator, I'd like to talk 
with you a little bit about the coal-ash spill at the Tennessee 
Valley Authority (TVA) site in Tennessee, and your intention--
which I don't disagree with--for the EPA to move into the 
regulation of coal ash from coal plants, and your decision 
these last few days to become involved with the clean up now, 
and to do it under the Superfund Act, I want to be sure I 
understand just what that means, what the consequences are, and 
what the costs will be.
    So I look forward, not just to this hearing, but to working 
with the Chairman and working with Administrator Jackson.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator Alexander.
    Senator Nelson, do you have a comment? And then Senator 
Tester.
    Senator Nelson. No, Madam Chairman, I really don't except 
to say that I am anxious to know more about the Department's 
move toward carbon regulation, and I'll bring that up during 
the questions.
    Senator Feinstein. Yes, we all will.
    Senator Nelson. Thank you.
    Senator Feinstein. Right.
    Senator Tester.


                    STATEMENT OF SENATOR JON TESTER


    Senator Tester. Thank you, Madam Chair, and I also want to 
thank you for your apology. I really appreciate the fact that 
you want to be on time, and sometimes we get pulled away, but I 
thank you very much for that, I appreciate that in this body.
    And Administrator Jackson, thank you for being here. I do 
have a very quick statement I'd like to put forth.
    As the Chairwoman said, I also want to thank you for the 
money that was put in for community water systems. I think 
clean water is a fundamental right, but a lot of small 
communities in States like Montana, really can't afford modern 
systems, so the State revolving funds are critically important, 
and a great source of funding to help local match meet the 
increased need for our antiquated water systems throughout the 
United States, especially in Montana.
    The EPA is doing a lot of work in Montana, and we've got 
some big problems to clean up. The EPA is in the process of 
restoring the Clark Fork River by removing Milltown Dam. I want 
to commend you on that. This Superfund site is to be turned 
into a beautiful park. It will restore two rivers and improve 
fish habitat in those rivers. There will be a kayaking park 
right outside a town called Missoula, Montana. The clean-up is 
creating a lot of jobs in construction, and afterwards will 
create even more jobs by revitalizing that area, and offering 
some recreational opportunities. In Montana, we call this the 
restoration economy, and I hope we see a lot more of it in the 
future.
    I want to discuss Libby very quickly, and my questions are 
going to revolve around Libby for the most part.
    The community of Libby was poisoned, and people are dying. 
Nearly 200 people--and this is not a big community--nearly 200 
people have lost their lives to asbestos-related diseases, many 
more are sick. The town is struggling to meet its healthcare 
needs and has an unclear picture of what the eventual and 
complete cleanup, really means. Homes are being devalued 
because of contamination, and businesses are concerned about 
the liability on sites that they would like to locate in.
    I have been to Libby, I have talked to the residents, 
things are difficult there. I have visited with folks who can 
barely breathe because of asbestos problems, who are denied 
oxygen from a WR Grace healthcare plan. These folks have 
asbestosis, they're denied oxygen from a WR Grace healthcare 
plan.
    Parents don't know if it's safe to let their kids play in 
the yard because of the potential contamination, and several 
community groups that were set up to communicate with the EPA 
have been disbanded because the EPA staff quit showing up at 
those meetings.
    Last week, the Justice Department failed in their criminal 
case against WR Grace, and the people in Libby and Montana are 
extremely frustrated.
    I'm glad that you're in this position, because I know you 
want to take the Agency in the right direction. But the 
situation in Libby is serious enough that it demands your 
personal and immediate attention.
    Your commitment to my colleague, Senator Baucus was that 
you would visit Libby and report on the reasoning behind the 
EPA's failure to declare Libby a public health emergency, and 
we look forward to both of those things happening, as soon as 
possible.
    And with that, I will save the rest of it for the 
questions.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator Tester.
    Madam Administrator, we will turn this over to you. We have 
your written statement in front of us, I'd like to ask, if you 
can, deal with some of these issues in your opening statement.
    If you want cuts in your budget anywhere, let us know 
where, and then we will go to the questions, and that's 
generally the most informative part of these hearings. And we 
will have rounds of 5 minutes from each member.
    So, welcome, and please proceed.


                  SUMMARY STATEMENT OF LISA P. JACKSON


    Mrs. Jackson. Well, thank you, Madam Chair, and let me 
simply start by saying that you and the members of this 
subcommittee are worth waiting for. So, I'm glad you did make 
it, and I'm glad we waited for you.
    Good morning to you, to Ranking Member Alexander, to the 
members of the subcommittee, thank you for your kind opening 
words, thank you for inviting me here today, and I will keep my 
remarks very brief so that we can get to the questions and 
answers.
    I do want to introduce Maryann Froehlich. Maryann is our 
acting Chief Financial Officer at the EPA and has been ably 
assisting me in preparing for this hearing, just in case we 
have any questions, or you want to address any questions to 
her.
    As you stated, Madam Chair, the President requests $10.5 
billion, roughly, for fiscal year 2010. It reflects the 
challenges and promises that we face in an era of high energy 
costs, climate change and economic crisis, and it reflects the 
President's commitment to environmental protection as a piece 
of the solution for our economic challenges. We know we can do 
better. We agree that all Americans deserve clean air, water, 
and a healthy environment. We also know that the clean energy 
economy deserves vigilance on the environmental front, as well.
    The President's budget starts the work that's needed to 
transform our economy. It includes investment in cutting-edge 
green technologies, but also it repairs our crumbling 
infrastructure, stronger regulatory and scientific capabilities 
to make the Nation's water, air, and land cleaner for our 
communities families and children.
    It provides a substantial increase in support to address 
the public health and environmental challenges that can not be 
postponed. In short, the budget reflects the President's 
commitment to a new era of environmental stewardship and puts 
us on a path to a cleaner, safer planet.
    You've already mentioned, Madam Chair, the $3.9 billion for 
clean water and drinking water state revolving funds, that's 
certainly a highlight of this budget. It's important to note 
that almost all of that money passes back into communities 
through the States, so that money is very much on the ground 
money for environmental restoration--for environmental 
investment, if you will I like your restoration economy 
remarks, Senator Tester.
    We estimate that this 157 percent funding increase in the 
State revolving funds will finance, as you suggest, about 1,700 
clean water and drinking water projects. I remind everyone that 
those areAmerican, well-paying jobs, here in this country.
    The fiscal year 2010 budget also supports efforts to 
develop a comprehensive energy and climate change policy with 
measures to increase energy independence and reduce greenhouse 
gases. This comes in the form of a $19 million increase to help 
the EPA, among other things, implement the greenhouse gas 
inventory, so we can take the very important step of measuring 
our progress in reducing emissions. That will also ensure that 
we are targeting major sources of emissions.
    The budget requests $55 million, an increase of over $8 
million to fund an enhanced toxics program, to screen, assess, 
and reduce chemical risk. That's a 17 percent increase, and 
allows the EPA to help complete screening level 
characterizations on more than 6,750 organic chemicals in use 
in the United States. There's also an increase of $24 million 
in the President's budget for the Superfund Program, that 
investment enhances enforcement and removal work throughout the 
country. Beginning in 2011, the so-called ``polluter pays'' 
measure would be reinstated under this budget, which would 
generate $1 billion a year, rising to $2 billion a year by the 
year 2019. These are extremely important resources needed to 
address cleanups of contaminated sites across America.
    Along with increases in Superfund, the budget provides a 
total of $175 million for Brownfields, which is a $5 million 
increase. The Brownfields program helps States, tribes, local 
communities, and stakeholders in economic redevelopment to work 
together to assess and clean up brownfield sites, revitalizing 
these properties, and returning them to their best and highest 
uses.
    These protection efforts focus on ensuring that the sites 
are ready to be returned, putting both people and property to 
work.
    Madam Chair, members of the subcommittee, the budget sets 
the EPA on a clear path to addressing our Nation's 
environmental challenges, and helps us to accomplish important 
work. I look forward to discussing the Clean Air Interstate 
Rule, and our plans to accelerate the schedule for development 
of that rule.
    I know we'll get into some discussion of greenhouse gases, 
carbon, and TVA. I'm happy to do that in the questions and 
answers. As you know, we have redoubled our commitment, Senator 
Alexander, to the TVA Clean-Up, and we've promised coal ash 
regulations by the end of this calendar year, a proposal.
    I think the two go hand-in-hand. We applaud the work of the 
State of Tennessee. They were the first on the scene after the 
tragic spill in December, and have been leaders in assuring 
that the cleanup is done in a transparent and scientifically 
sound way.
    We believe, because the TVA is a Federal facility that the 
EPA should be involved in a cleanup of this magnitude to bring 
Federal resources to bear on the cleanup side to work hand-in-
hand with the State. I believe the State and the EPA will make 
a good team--a partnership that will ensure that that area is 
restored to its extraordinary natural beauty, and also its 
environmental health. The residents there deserve no less.


                           PREPARED STATEMENT


    You're right, I know we will discuss Libby. We've been 
working with Senator Baucus actually before my confirmation. 
Senator Baucus made it clear that he wanted a visit to Libby 
and personal attention. I'm happy to discuss that in the 
questions and answers, as well, Senator.
    Thank you very much.
    [The statement follows:]

                 Prepared Statement of Lisa P. Jackson

    Madam Chairman and members of the subcommittee, I am delighted to 
appear before you today to discuss how the proposed fiscal year 2010 
budget request for the Environmental Protection Agency (EPA) is 
designed to address our environmental challenges and contribute to the 
country's economic recovery.
    The President requests $10.5 billion for fiscal year 2010 to carry 
out EPA's mission to protect human health and safeguard and improve the 
environment. This budget represents a 37 percent increase over our 
fiscal year 2009 budget--the highest level ever for EPA. It reflects 
both the challenges and promise we face in an era of higher energy 
costs, global climate change, and economic crisis. We recognize that 
now is the time to make the environmental investments to support a 
cleaner energy economy and a more sustainable future.
    This budget starts the work needed to transform our economy through 
investment in cutting-edge green technologies, repairing crumbling 
infrastructure and strengthening our core regulatory and scientific 
capabilities to make the Nation's water, air, and land cleaner for our 
communities, families, and children. This budget keeps EPA on the job 
protecting the environment. It helps States, tribes, and local 
governments stay on the job by providing critical partnership 
assistance. And, it helps put Americans back on the job.
    The fiscal year 2010 budget request provides a substantial increase 
for EPA programs, reflecting greater opportunity for EPA to address 
public health and environmental challenges that can no longer be 
postponed, in areas such as water infrastructure, protecting our 
freshwater resources, laying the foundation to address climate change, 
and addressing gaps in research as well as chemical management.
    This fiscal year 2010 budget reflects President Obama's commitment 
to usher in a new era in environmental stewardship and puts us on a 
clear path to a cleaner and safer planet.
    Mr. Chairman and members of the subcommittee, I now would like to 
provide a bit more detail about the major environmental protection 
priorities addressed in this budget.

                    INVESTS IN WATER INFRASTRUCTURE

    The most significant investments in the fiscal year 2010 budget 
include $3.9 billion total for the Clean Water and Drinking Water State 
Revolving Funds to fund water infrastructure projects for States, 
tribes, and territories. This budget includes $2.4 billion for the 
Clean Water State Revolving Fund and $1.5 billion for the Drinking 
Water State Revolving Fund. These investments will help the Nation 
build, improve, and repair the infrastructure that provides us with 
reliable and safe sources of water.
    We estimate that this 157 percent funding increase in the State 
Revolving Funds will finance 1,000 clean water and 700 drinking water 
projects across America--projects that will upgrade and update the 
Nation's aging water infrastructure, assure compliance with Safe 
Drinking Water Act requirements, make water delivery more efficient, 
and create American jobs that pay well. These investments channel 
critical funding for water system pipe replacements and help address an 
estimated 240,000 water pipe breaks that occur across America each year 
and waste millions of gallons of water.
    The Clean Water and Drinking Water State Revolving Funds provide 
grants to States to capitalize their own revolving funds, providing 
infrastructure financing to communities, making water infrastructure 
more efficient, and supporting green jobs in the 21st century. Because 
repayments and interest are recycled back into the program, these State 
Revolving Funds generate funding for loans even without Federal 
capitalization. We estimate that for every Federal dollar invested, 
approximately $2 in financing are provided to municipalities.
    The administration will make these water investments with an eye to 
the future. EPA will continue to work with State and local partners to 
develop sustainability policies, including management and pricing, 
conservation, planning adequate long-term funding for future capital 
needs, and providing equitable consideration of small system customers. 
As President Obama has said, now is the time to make long overdue 
investments in clean energy and new infrastructure to create a platform 
for entrepreneurs and workers to build an economy that will lead us 
into a better future. This significant investment sends a clear message 
to American taxpayers that the water infrastructure, that all of us 
rely on every day, will be repaired, maintained, and modernized for the 
21st century.

                  ACCELERATES GREAT LAKES RESTORATION

    The Great Lakes Basin is a national resource treasure that is home 
to 34 million people in the United States and Canada. It holds 20 
percent of the world's fresh surface water, has 10,000 miles of 
coastline, and contains a diverse array of biological communities. 
EPA's fiscal year 2010 budget requests $475 million for Great Lakes 
restoration programs and projects that strategically target the most 
significant problems in the region, such as aquatic invasive species, 
nonpoint source pollution, toxics in sediment, and habitat and species 
loss.
    This restoration effort represents the Federal Government's 
commitment to significantly advance Great Lakes protection. The Great 
Lakes Initiative will use outcome-oriented performance goals and 
measures to target the most significant problems and track progress in 
addressing them. EPA and its Federal partners will coordinate State, 
local, tribal, and industry actions to protect, maintain, and restore 
the chemical, biological, and physical integrity of the Great Lakes.
    In the fiscal year 2010 budget we include other geographic 
priorities, such as Puget Sound, San Francisco Bay, and the Chesapeake 
Bay. The Chesapeake Bay restoration effort is funded at $35 million, a 
$4 million increase over fiscal year 2009, and will support projects to 
further address nutrient and sediment pollution in the Bay.

       INITIATES A COMPREHENSIVE APPROACH TO SLOW GLOBAL WARMING

    EPA's fiscal year 2010 budget supports efforts to develop a 
comprehensive energy and climate change policy to increase energy 
independence, move toward a greener economy and to reduce greenhouse 
gas emissions. There is not a moment to lose in confronting the rapid 
advance of climate change.

            GREENHOUSE GAS EMISSIONS (CAP AND TRADE PROGRAM)

    The fiscal year 2010 budget includes a $19 million increase to 
support the President's effort to develop a comprehensive energy and 
climate change plan to transition America to a clean energy economy, 
reduce oil usage, and slow global warming. It will allow us to work on 
a greenhouse gas emissions inventory and work with industry sectors to 
report high-quality greenhouse gas emission data that is the foundation 
of an effective climate policy. This funding supports design, 
development, and testing the data management system, developing 
guidance and training materials to assist the regulated community, 
conducting industry-specific workshops, and developing source 
measurement technologies for greenhouse gases.
    This budget provides funding to develop environmentally sound 
methodological approaches needed to implement a possible cap and trade 
program, including offsets, and to strengthen climate partnership 
programs. EPA will develop protocols to measure the effectiveness of 
offset projects, and provide advice on effective, environmentally sound 
approaches to offsets.

                             CHEMICAL RISKS

    Just as we need to address climate change, we also need to manage 
chemical risks. The fiscal year 2010 budget requests $55 million, an 
increase of $8 million over fiscal year 2009 levels, to fund an 
enhanced toxics program to screen, assess, and reduce chemical risks. 
This 17 percent increase will fulfill United States commitments under 
the Security and Prosperity Partnership of North America to complete 
screening-level hazard and risk characterization and initiate action as 
needed on more than 6,750 organic U.S. chemicals.

                        RESEARCH AND DEVELOPMENT

    The Research and Development programs are funded at $842 million 
for the Science and Technology appropriation, and increase of $52 
million from fiscal year 2009. This funding will support the rigorous, 
peer-reviewed scientific analyses that we must use as a basis for our 
environmental decisions. It will allow us to assess, develop and 
compile scientifically rigorous tools to inform decision-making and 
assist in incorporating green infrastructure into existing practices.

                        COMPUTATIONAL TOXICOLOGY

    The fiscal year 2010 budget includes a $4.5 million increase over 
the fiscal year 2009 enacted level for Computational Toxicology 
Research. This increase will enhance EPA efforts to provide regulatory 
offices with detailed hazard assessment profiles on thousands of 
chemicals of concern, as well as information on human exposure 
potential, including chemical screening and prioritization, and 
toxicity pathway-based risk assessment. This funding will also provide 
for the high-throughput screening of up to 200 additional chemicals and 
the deployment of this information in EPA databases with supporting 
analysis tools, via computer programs and EPA websites.

               INTEGRATED RISK INFORMATION SYSTEMS (IRIS)

    The fiscal year 2010 budget includes $14.5 million, a $5 million 
increase over 2009, to enable the IRIS to increase assessment 
production and reduce our backlog of assessments for chemicals 
previously identified as priority needs.

                                BIOFUELS

    The fiscal year 2010 budget includes $5.6 million, an increase of 
$5 million over fiscal year 2009, for biofuels research and 
sustainability analysis mandated by the Energy Independence and 
Security Act of 2007. Biofuels lifecycle and sustainability research 
will provide better information to decision makers on the trade offs 
and opportunities associated with increased biofuels production.

                     GREEN INFRASTRUCTURE RESEARCH

    The fiscal year 2010 budget provides $3.6 million to expand green 
infrastructure research to assess, develop, and compile scientifically 
rigorous tools and models that will be used by the Agency's water and 
other programs, States, tribes, and municipalities to help advance the 
deployment of green infrastructure. This research will help EPA and its 
non-Federal partners further their understanding of the benefits it 
provides, and aid in integrating green infrastructure into water 
pollution control programs at the Federal, State, and local level.

                               AIR TOXICS

    I believe EPA has a particular duty to inform America's most 
vulnerable populations about the environmental risks we face. I 
recognize that for the Nation's vulnerable populations--the 
disadvantaged, the elderly, children, and historically disadvantaged 
communities--are least able to bear additional increments of 
environmental risk.
    Therefore, the budget also includes $3.3 million for air toxics 
research to protect and improve the quality of the air that each of us 
breathes. Air toxics research studies the effects to human health of 
toxic air pollutants and includes evaluating risk assessment 
methodologies to support the development and implementation of 
regulatory programs that assist State and local governments and tribes 
develop clean air plans. The fiscal year 2010 budget also supports 
improvement of risk assessment tools, including National-Scale Air 
Toxics Assessment; analytical support to States as they enhance air 
toxics monitoring near selected schools, and five FTE in EPA's regional 
offices to provide technical assistance and coordination.
    These combined scientific efforts do more than build our 
understanding of environmental programs; they remind us all of the need 
for transparent, clear communication of the facts and risks of the 
environmental challenges we face together.

                 STRENGTHENS ENVIRONMENTAL ENFORCEMENT

    EPA's fiscal year 2010 budget proposes the largest enforcement and 
compliance budget in history--$600 million, an increase of $32 million 
from last year. The $600 million enforcement budget reflects the 
President's strong commitment to enforcing of our Nation's 
environmental laws and ensures that EPA has the resources necessary to 
maintain a robust and effective criminal and civil enforcement program. 
Specifically, the request includes an increase of nearly 30 additional 
positions primarily for civil and criminal enforcement. In addition, we 
will enhance efforts to integrate environmental justice considerations 
in EPA's programs and policies as well as fulfill environmental 
requirements with respect to other Federal agencies' projects funded by 
the American Recovery and Reinvestment Act. Experience has shown that 
investing in our enforcement program yields tangible pollution 
reductions and fundamental behavioral change in the regulated 
community. The fiscal year 2010 budget will advance EPA's mission, and 
do so with unparalleled transparency. The success of our efforts 
depends on earning and maintaining the trust of the public we serve by 
upholding values of transparency and openness in conducting EPA 
operations.

                               SUPERFUND

    The $1.3 billion Superfund budget contains an increase of $24 
million over fiscal year 2009. Funding in the budget will enhance 
enforcement and removal work as well as support the Superfund program. 
The budget also includes a proposal to reinstate the Superfund tax that 
expired in 1995. Beginning in fiscal year 2011, the taxes should 
generate $1 billion a year, rising to $2 billion a year by 2019--all to 
fund needed cleanups across America. These efforts focus on ensuring 
that contaminated sites are ready to be returned to beneficial use by 
our communities.

                              BROWNFIELDS

    The 2010 budget provides a total of $175 million for the 
Brownfields program, a $5 million increase from 2009. This includes 
$149.5 million for Brownfields State and Tribal Assistance Grants to 
continue to provide Brownfields assessment, revolving loan fund, clean-
up, and job-training grants. The Brownfields program is designed to 
help States, tribes, local communities and other stakeholders work 
together to assess, safely cleanup, and reuse Brownfields. Revitalizing 
these once productive properties helps communities by removing blight, 
satisfying the growing demand for land, helping limit urban sprawl, 
enabling economic development, and improving quality of life.

                LEAKING UNDERGROUND STORAGE TANKS (LUST)

    The fiscal year 2010 budget requests $128 million for the Leaking 
Underground Storage Tanks program, including $113 million for the LUST 
trust fund. The LUST program promotes rapid and effective responses to 
releases from Underground Storage Tanks containing petroleum and 
hazardous substances by enhancing State, local, and tribal enforcement 
and response capability. EPA supports State and tribal underground 
storage tank programs to clean up contaminated sites, promote 
innovative and environmentally friendly approaches in corrective action 
to enhance and streamline the remediation process, and measure and 
evaluate national program progress and performance. Almost 80 percent 
(or 377,019) of all reported leaks have been addressed to date, leaving 
a backlog of almost 103,000 cleanups that have not yet been addressed. 
In fiscal year 2010, EPA will continue to work with the States and 
tribes to complete LUST cleanups in an effort to reduce the remaining 
backlog.
    All three of these programs--Superfund, Brownfields, and Leaking 
Underground Storage Tanks--focus on cleaning up contaminated sites to 
ensure these sites are ready to be returned to beneficial use by our 
communities, putting both people and property to work.

                              PARTNERSHIPS

    Next, I want to discuss how this budget will help our partners stay 
on the job. States, localities, and tribes are the front line in many 
environmental programs--they implement major portions of many EPA 
programs. As the recession drastically lowers tax revenues, States and 
localities are looking at deep cuts in all their programs--cuts that 
could hinder environmental progress on a wide range of issues.

                           CATEGORICAL GRANTS

    In fiscal year 2010, EPA requests a total of $1.1 billion for 
``categorical'' program grants for State, interstate organizations, 
nonprofit organizations, and tribal governments. EPA will continue to 
pursue its strategy of building and supporting State, local and tribal 
capacity to implement, operate, and enforce the Nation's environmental 
laws. In this way, environmental goals will ultimately be achieved 
through the actions, programs, and commitments of State, tribal and 
local governments, organizations and citizens. Highlights of EPA's 
fiscal year 2010 categorical grants include:

                      AIR QUALITY AND RADON GRANTS

    The fiscal year 2010 request includes $248 million for grants to 
support State, local, and tribal air management and radon programs. 
These funds provide resources to multi-state, State, local, and tribal 
air pollution control agencies for development and implementation of 
programs for the prevention and control of air pollution and 
implementation of National Ambient Air Quality Standards. EPA will 
continue an initiative to measure levels of toxic air pollution near 
selected schools across the country and ensure that deployed monitors 
collect high-quality data. This partnership will help EPA maximize its 
monitoring and analytical capabilities. This budget also includes $8.1 
million for radon grants that focus on reducing radon levels in 
existing homes and promoting the construction of new homes with radon 
reducing features.

                     WATER POLLUTION CONTROL GRANTS

    The fiscal year 2010 budget request includes $229 million for Water 
Pollution Control grants. These grants assist State and tribal efforts 
to restore and maintain the Nation's water quality. EPA will also work 
with States to implement the new rules governing discharges from 
Concentrated Animal Feeding Operations. EPA encourages States to 
continually review and update the water quality criteria in their 
standards to reflect the latest scientific information from EPA and 
other sources.

                     NONPOINT SOURCE PROGRAM GRANTS

    In fiscal year 2010, EPA requests $200.9 million for Nonpoint 
Source Program grants to States, territories, and tribes. EPA's goal is 
to reduce annually the amount of runoff of phosphorus, nitrogen, and 
sediment through our Clean Water Act section 319-funded projects by 4.5 
million pounds, 8.5 million pounds, and 700,000 tons, respectively. 
These grants enable States to use a range of tools to implement their 
programs including: both nonregulatory and regulatory programs, 
technical assistance, financial assistance, education, training, 
technology transfer, and demonstration projects.

              HAZARDOUS WASTE FINANCIAL ASSISTANCE GRANTS

    In fiscal year 2010, EPA requests $106.3 million for Hazardous 
Waste Financial Assistance grants. These grants are used for 
implementation of the Resource Conservation and Recovery Act hazardous 
waste program, which includes permitting, authorization, waste 
minimization, enforcement, and corrective action activities. In fiscal 
year 2010, EPA expects that 100 hazardous waste facilities will put in 
place new or updated controls to prevent releases.

                 PUBLIC WATER SYSTEM SUPERVISION GRANTS

    In fiscal year 2010, EPA requests $105.7 million for Public Water 
System Supervision (PWSS) grants. These grants provide assistance to 
implement and enforce National Primary Drinking Water Regulations to 
ensure the safety of the Nation's drinking water resources and to 
protect public health. In fiscal year 2010, EPA will emphasize that 
States use their PWSS funds to ensure that drinking water systems of 
all sizes meet new and existing regulatory requirements.

                TRIBAL GENERAL ASSISTANCE PROGRAM GRANTS

    EPA's budget request includes $62.9 million for the Tribal General 
Assistance Program to help federally recognized tribes and intertribal 
consortia develop, implement, and assess environmental programs. In 
fiscal year 2010, 100 percent of federally recognized tribes and 
intertribal consortia will have access to environmental assistance.

        PESTICIDES, TOXICS SUBSTANCE, AND SECTOR PROGRAM GRANTS

    The fiscal year 2010 request includes $25.6 million to build 
environmental enforcement partnerships with States and tribes and to 
strengthen their ability to address environmental and public health 
threats and assist them in the implementation of compliance and 
enforcement provisions of the Toxic Substances Control Act and the 
Federal Insecticide, Fungicide, and Rodenticide Act. Under our Toxic 
Substances Compliance Grant program, States receive funding for 
compliance inspections focused on asbestos, polychlorinated biphenyls, 
and lead-based paint. States also receive funding for implementation of 
the State lead-based paint certification and training, and abatement 
notification compliance and enforcement program. Under the Sector 
program grants, EPA builds environmental partnerships with States and 
tribes to strengthen their ability to address environmental and public 
health threats, including contaminated drinking water, pesticides in 
food, hazardous waste, toxic substances, and air pollution.

                              LEAD GRANTS

    The fiscal year 2010 request includes $14.6 million for lead 
grants. This funding will support the development of authorized 
programs, including work under the new lead renovation, repair, and 
painting rule, in both States and tribes to prevent lead poisoning 
through the training of workers who remove lead-based paint, the 
accreditation of training programs, the certification of contractors, 
and renovation education programs. In fiscal year 2010, EPA will 
continue to award targeted grants to reduce childhood lead poisoning 
and keep EPA on target to eliminate childhood lead poisoning as a 
public health concern.
    In addition to these grants, the fiscal year 2010 budget continues 
EPA's funding and Beaches Environmental Assessment and Coastal Health 
Act and Wetlands grants to protect our coastal shorelines and improve 
water quality in watersheds throughout the country.

                           HOMELAND SECURITY

    EPA has a vital role in homeland security. The Agency has been 
called upon to respond to five major disasters and nationally 
significant incidents in the past 7 years. In the coming years, EPA's 
homeland security roles and responsibilities will continue to be of the 
utmost importance as the Agency enhances its preparedness.
    The fiscal year 2010 budget requests $160 million to support the 
Agency's homeland security efforts. The emphasis for fiscal year 2010 
is on several areas: applied research for decontamination methods and 
agents; ensuring trained personnel and key lab capacities are in place 
to be drawn upon in the event of multiple large-scale catastrophic 
incidents; and enhancing critical water infrastructure security 
efforts.
    EPA's fiscal year 2010 budget provides an increase of $9 million to 
fully fund five Water Security Initiative pilot cooperative agreements. 
The Water Alliance for Threat Reduction Activities. The Water Security 
Initiative will include continued design and demonstration, of a system 
to test, and evaluate the appropriate response to drinking water 
contamination threats. Adoption of effective water security guidance on 
contamination systems will be issued upon completion of these projects.

                           INSPECTOR GENERAL

    This budget also reflects another key concern of Congress and 
mine--making sure we manage our resources responsibly. This budget 
includes increases to the Inspector General to help ensure that we 
protect public dollars from fraud, waste, and abuse.

                               CONCLUSION

    Madam Chairman and members of the subcommittee, the fiscal year 
2010 budget request sets EPA on a clear path to accomplishing the 
important work Americans support to address the pressing environmental 
challenges facing our Nation. We are honored to have the job of 
protecting human health and the environment. And, we are proud that 
this $10.5 billion funds investments in both our environmental and 
economic future.

                            GREENHOUSE GASES

    Senator Feinstein. Thank you very much, Madam 
Administrator.
    Senator Alexander mentioned the greenhouse gas area, and I 
want to plunge right into that, if I might. You made that--your 
proposed endangerment finding on April 17. As I understand the 
Clean Air Act, section 202(a), the decision--your proposed 
decision that's coming, includes essentially two separate 
decisions--a finding that six greenhouse gases, including 
carbon and methane, do endanger both public health and welfare, 
and a finding that emissions from new motor vehicles cause or 
contribute to the greenhouse concentrations that endanger 
public health.
    So, once the endangerment decision is finalized, which is 
expected by legislation by June 30 of this year. The groundwork 
is laid for the EPA to begin regulation of vehicle emission 
standards for greenhouse gases, as well as for possible 
stationary source regulations. This is very powerful, and 
potent.
    As Senator Alexander stated--and I happen to agree with 
him--it is definitely preferable to have the Congress act in 
this area, and the House looks like it may be.
    I think the jury is still out in the Senate, and we hope--
and everything is being done and there is a very active effort 
by Senator Boxer and Senator Kerry on the EPW Committee to come 
up with a bill. As we know, here we've got 60-vote cloture for 
virtually anything that is controversial, and we have 
Copenhagen coming at the end of the year where American 
leadership is necessarily expected.
    My question to you is this, what is the EPA prepared to do 
if action is not taken in a prompt and timely way by the 
Congress?
    Mrs. Jackson. Well, thank you, Madam Chairman.
    EPA is prepared to follow-up on its statutory duties under 
the Clean Air Act. As you rightfully noted, the proposed 
endangerment finding is the first step to potential regulation 
of greenhouse gases.
    The President and I have said repeatedly that we agree with 
you and Senator Alexander, that we would prefer to see Congress 
act. We would prefer to see a law that is specifically 
dedicated to addressing the issue of greenhouse gas emissions 
in this country, along with comprehensive energy legislation. 
That is being considered in the House of Representatives.
    We have a duty at the EPA. Two years ago, the Supreme Court 
ordered the EPA to make a finding one way or the other, and the 
proposed finding answers the call from the Supreme Court, so we 
are following the law.
    If that finding is finalized, then the EPA would be 
authorized to regulate greenhouse gas emissions from motor 
vehicles and trucks, and the EPA will proceed, judiciously, to 
assess the need for, and to coordinate that regulation.
    Senator Feinstein. Before the end of the year?
    Mrs. Jackson. I would say that it is quite likely that we 
will make a decision on endangerment well before the end of the 
year. The EPA has been working as I'm sure you know already, 
very closely, and under orders from the President with the 
Department of Transportation, with your home State of 
California, which has been a leader on this issue, to make sure 
that as we consider next steps on emissions for automobiles, 
that those steps are coordinated, and that they will comply 
with the Clean Air Act and its mandates.
    Senator Feinstein. Can you discuss with us some of the 
issues that you might have to address in the next 1 to 2 years, 
to move toward regulation of greenhouse gases?
    Mrs. Jackson. I'm happy to. Well, we just talked about the 
first issue.

                          ENDANGERMENT FINDING

    Senator Feinstein. Right.
    Mrs. Jackson. The first regulatory issue we would turn is 
to motor vehicles. The endangerment finding actually pertains 
to motor vehicles, as you know, and that is not a new issue, 
it's one that has been brewing for quite some time. It was 
actually brought to a head, not only by the Massachusetts v. 
EPA decision, but also by the State of California. California 
developed automobile emissions standards that were designed to 
specifically address carbon. The so-called ``waiver decision'' 
which President Obama ordered the EPA to re-look at on my first 
day as Administrator, says that we are now in the process of 
looking at whether or not the California standards should be 
applied in those States that have chosen--on a Statewide 
level--to adopt them.
    Senator Feinstein. Is it 12 States?
    Mrs. Jackson. I believe it's 12, yes.
    Senator Feinstein. So, what you're saying is 12 States are 
ready, and now under the law can affect----
    Mrs. Jackson. The EPA has not made a determination on the 
waiver, the public comment period closed in early April, and as 
you noted, by law, by June 30 Congress has asked us to make a 
determination one way or another with respect to the waiver.
    Once the decision is made with respect to California, the 
other States would so be empowered.
    Senator Feinstein. Yes.
    The reason Senator Alexander asked this, you see, I think 
this is a very powerful mobilize for the Senate to come to 
grips with the need to pass a bill. Because at least as I look 
at it, they are going to be under a mandate where there is 
little choice, once they make the waiver decision, to move, to 
regulate if we do not have something.
    So, in--at least in my view--it's a very powerful 
compelling argument as to way we must take some action, and not 
be dilatory.
    I'm going to turn it over to you for your questions with 
that.

                               CLEAN AIR

    Senator Alexander. Thank you, Madam Chairman.
    In my second round I'd like to get back to the discussion 
we were just having, but in this first round, let me ask you 
about the other three pollutants, and about the TVA situation.
    The other three pollutants that come from coal plants are, 
of course, sulfur, nitrogen, and mercury. And Senator Carper 
and I had an excellent briefing the other day about the success 
of those programs since the early 1990s. Even though there's 
some work still to be done, great progress has been made.
    And it's worth knowing that it differs from carbon in a 
couple of important ways. One is, there was the technology to 
deal with sulfur at the time the cap-and-trade was imposed on 
sulfur, called ``scrubbers,'' and two, we were dealing with a 
lot less money, and only a part of the economy.
    But a court has knocked down the so-called ``CAIR rule,'' 
which provided certainty about--and high standards--about 
sulfur and nitrogen. That's a real problem for those of us who 
care about clean air in the Eastern United States. Because in 
Tennessee, for example, in the Great Smoky Mountain area, as 
well as in the New Jersey area in the Northeast that you're 
very familiar with--we're affected by dirty air that blows in 
from other places, as well as some we commit ourselves. And the 
only way we can deal with that is to have a strong national 
standard, or at least one that applies to the Eastern United 
States.
    Senator Carper and I are prepared to go forward with 
legislation that would reinstate strong, clean air pollution 
rules on sulfur, nitrogen, and mercury, on which we don't want 
a cap-and-trade because it just goes up in the air and comes 
down.
    My question for you is, wouldn't it be easier and quicker 
for the country if we simply gave the EPA the authority that 
the court said that you don't have in order to write a CAIR 
rule, or would it be easier and quicker, and better for the 
country if we authored a comprehensive bill and tried to pass 
that.
    Or, should we do it in two steps? Go ahead and give you the 
authority, let you do the rule, which I would assume would come 
quicker, and then try to persuade our colleagues to do a 
comprehensive piece of legislation?
    Mrs. Jackson. Thank you, Senator. And thank you for your 
leadership on the issues of clean air.
    I would offer you the following pieces of information, and 
then maybe we could come to a decision, offline, together on 
what's the best way to go.
    The EPA will take the rest of the calendar year to work on 
the replacement for the CAIR rule that was knocked down by the 
court. As you know, we're operating under the old rules while 
we develop a new rule.
    We're working to propose that new rule in early 2010, the 
calendar year 2010.
    In the meantime, the NO<INF>X</INF> trading program began 
on schedule, in January of this year. The ozone season 
NO<INF>X</INF> trading program began on May 1, and the 
SO<INF>2</INF> trading program is expected to commence January 
1, 2010, as intended.
    My concern is that without potential additional authority 
there are some specific issues that we're concerned we could be 
sued on and lose again if we don't have a legislative fix.
    So, I think there may be a need for a small, but mighty 
legislative fix to enable those rules to go forward without 
additional challenge.
    The other commitment I'd like to make to you, sir, is that 
this gives us an opportunity to once again look at the science, 
and make sure that in the CAIR rulemaking, we are judicious and 
smart, but that we squeeze every drop of cost-effective 
protection we can, and every control we can get out of the CAIR 
rule. I think that there are opportunities still to be had in 
that arena, as well.

                    TENNESSEE VALLEY AUTHORITY (TVA)

    Senator Alexander. Well, I will look forward to working 
with you on that as I know Senator Carper will.
    And I think it's important and relevant, Madam Chairman, to 
the global warming concern. I think we have to use coal plants 
for the foreseeable future, and so we need to clean them up. 
And a big part of cleaning them up is sulfur, nitrogen and 
mercury. We can plug our electric cars in at night and never 
have to build another power plant for the next 20 years. And 
then we can figure out what to do about carbon.
    Now, I asked you about TVA. TVA estimates it'll cost $1 
billion to clean up that coal ash spill--that's a huge amount 
of money for the ratepayers of our region. We understand the 
EPA will now be a partner in that cleanup. Please explain to me 
what that means to us, to be as part of the Superfund. Will 
that add to the bill that the TVA ratepayers will have to pay? 
Will that mean that Federal dollars will be available to help 
with the cleanup? Will that mean that the EPA will use TVA's 
experience as a model for other coal plants in the country in 
terms of how they deal with coal--might deal with coal ash in 
an effective way?
    Mrs. Jackson. Certainly, I believe that the EPA's getting 
more directly involved in the face of an enforceable order with 
TVA, which we issued recently, on May 11, means that the EPA 
will be there in the unlikely--but possible--event that things 
don't go well TVA has been stepping up to the plate, to date. 
Most of the work, to date, has been paid for by TVA. TVA has 
also stepped up to pay the State's oversight costs, and has 
agreed to pay the EPA's oversight costs. So, to the extent that 
the polluter pays, TVA--although they are a Federal entity--has 
agreed, as part of this order, to pay those costs.
    Now, I'm well aware of the fact that the costs keep 
escalating, because the more we learn, the more we realize that 
the old adage, that an ounce of prevention here would have been 
worth many pounds of cure, because this will be an expensive 
cleanup. First, because of what it did to the land, but also 
because of the ecosystem--the water and the fact that small 
amounts of chemicals there can have a profound impact on the 
ecosystem.
    There's no new money now, Senator, I do believe that the 
EPA's involvement ensures that the cleanup will be done. I 
commit to you that it means we will be vigilant and that we 
will continue discussions if we find that funding is an issue. 
I would not hesitate to bring those issues to the attention of 
the White House. I believe that this is the right model.
    You asked if this is a model--to me, it very much is. This 
is a Federal facility. The message for the American people, and 
for the people in your State is that the Federal Government 
takes responsibility for what happens here. TVA has done that, 
and to make sure that the cleanup is done right.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Senator Tester.

                             LIBBY, MONTANA

    Senator Tester. Thank you, Madam Chair.
    EPA has 16 Superfund sites in Montana, including Anaconda, 
Butte, East Town, Mill Town, and Libby. As I said in my opening 
statement, I really want to focus on Libby for now.
    The EPA Emergency Response Team first came to Libby in 
1999, cleanup began shortly thereafter. In 2006, the EPA Office 
of Inspector General investigated cleanup in Libby on 
allegations that the Agency failed to address scientific 
standards during cleanup. That report was just released.
    While that report found no criminal activity, it questioned 
the science of the cleanup and apparent rush to complete record 
of decision. It highlighted problems with communication in the 
community and it pointed out a disconnect between the 
scientists and the Agency.
    It has been 3 years, but it appears that the questions 
raised in the Rumper Report are still valid. My questions are--
will you commit the EPA to making sure that any record of 
decision is done with a complete scientific background to 
ensure that Libby has been cleaned to safe levels?
    Mrs. Jackson. Senator, absolutely. I commit that science is 
first at the EPA.
    Senator Tester. And, in your mind, can you say what would 
constitute a safe level?
    Mrs. Jackson. I can not, sitting here, give you a numeric 
level. What I will say is that the science of assessing risk 
with respect to asbestos contamination has not necessarily 
progressed as quickly as I believe it should for the people of 
Libby. I know they are frustrated, and they are worried, as 
they rightfully should be. I believe that if there are actions 
that we can take in the interim, to make sure that the cleanup 
doesn't stall, there are things we know we must do. We've been 
working with the community and with your colleague, Senator 
Baucus.

                     LIBBY, MONTANA--COMMUNICATIONS

    Senator Tester. Okay, how can communication be improved 
with the community? In both directions?
    Mrs. Jackson. Well, I was troubled to hear earlier, 
Senator, your concern about the EPA pulling out of meetings. I 
will go back and speak with my staff. We will redouble efforts 
to make sure that out of our Denver field office, as well as 
out of headquarters, all lines of communications are open. I 
have been personally involved in trying to jump start our 
efforts in Libby, Montana.
    Senator Tester. I appreciate that.
    Needless to say, Libby is a complex cleanup site, but 
there's not been a risk assessment, working with the EPA and 
the community. Do you feel that placing a risk assessor on the 
ground in Libby might help with the Agency's communication with 
the residents?
    Mrs. Jackson. I certainly will commit to making sure that 
risk assessors are as available to the community as they need 
to be. I know that the risk assessors from our Denver office 
have been up there--we can send them back. Having them on the 
ground every day may be more than we need--risk assessment is a 
fairly rigorous science. Whatever we need to do to make sure 
that the people of Libby believe they have access to our 
experts, we will do.

                       LIBBY, MONTANA--HEALTHCARE

    Senator Tester. Okay.
    The folks in Libby who have been exposed to--continue to be 
diagnosed with asbestosis and mesothelioma--Lincoln County, 
which is where Libby is located--has the highest age adjustment 
rate of asbestosis mortality in the United States, among 
counties. How can we help these folks with their healthcare 
after the EPA leaves?
    Mrs. Jackson. Thank you, Senator.
    I certainly wouldn't want to step into the territory of the 
Department of Health and Human Services (HHS), we certainly 
have started to have discussions with them. Senator Baucus 
asked me to look into that issue as part of my confirmation, 
and those discussions are continuing. So, I have nothing----
    Senator Tester. One of the things that I see on another set 
of committees, with Veterans Affairs and the Department of 
Defense is making sure that information gets passed along in an 
appropriate manner, things can fall through the cracks. And 
what the VA did is they made a commitment to work with the 
Department of Defense to make sure that there weren't things 
falling through the cracks.
    I think that that is an equal parallel here between the EPA 
and HHS. And it's not going to happen--we will have people fall 
through the cracks, we'll have healthcare needs--and I know 
you're not a healthcare agency, but HHS is, and I think that if 
you dovetail your efforts together with Secretary Sebelius from 
HHS, I think that we can make a giant step forward in meeting 
some of the challenges that occur in Libby.
    So that, I guess the question I have with you is, are you 
having conversations right now, with Secretary Sebelius, or 
whoever in HHS, and do you anticipate that being an ongoing 
situation, as far as your working with them to best meet the 
needs of the citizens?
    Mrs. Jackson. The answer is yes. I have not personally had 
a discussion with the new Secretary on this, but our staff--
long before Secretary Sebelius was confirmed--has been working 
together. We will continue that work, and we will make sure 
that in doing so, we address your concern about people falling 
through the cracks of either the cleanup site, or the 
healthcare side.
    Senator Tester. Okay.
    Thank you very much, Madam Chair.
    Senator Feinstein. Thank you very much, Senator Tester.
    And, you know, since you've raised the situation at Libby--
I also serve on the Justice Department and was very active in 
the asbestos legislation, which went on and on and on and on.
    And in the course of it, the real--I mean, the incredible 
damage that was done to people by asbestos became 
extraordinarily clear. I just want to help you any way I can 
because it is such a big problem with asbestosis, with 
mesothelioma. I mean, mesothelioma is, I guess, 100 percent 
fatal, and quickly, and it affects young people. You can pick 
it up off of somebody's uniform, pick up the little shards. So, 
I would like to just offer my help wherever I can.
    Senator Tester. Madam Chair, I very much appreciate that. I 
feel somewhat hesitant to talk about specific instances like 
Libby, I mean, we should be talking about global things, like 
things in the air, and clean water which impacts all of our 
communities across the United States.
    But this situation in Libby is so grotesque that I really 
think--and we spent a ton of money, and I'm not sure that, 
personally--and I'm not a scientist, I'm a farmer--but I'm not 
sure that we've got the bang out of the buck that we've spent.
    I think that with some attention by people like you, 
Administrator Jackson, I think we can get a big bang for the 
buck, we can help make this community whole again, and we can 
solve a huge problem that we have, in one of the most beautiful 
places in the world.
    Senator Feinstein. Well, Senator Tester, Senator Alexander, 
why don't we work together on some report language for the 
bill, which essentially would mandate the EPA to really do what 
Senator Tester has just suggested--take a new look at it and 
give us some findings.
    Madam Administrator, would you be responding to report 
language? We could also put in bill language, I suppose, but--
--
    Mrs. Jackson. We're already responding, and I'm happy to 
double efforts. We've agreed to do all we can working with 
Senator Baucus, and having Senator Tester's voice join in that, 
I think, can only result in more action for his constituents.
    Senator Feinstein. Right. Well, you were new, I think very 
high of you, you come so well recommended to the Federal 
Government and the problem has been that this has gone on year 
after year after year after year for a long time and I really 
think it needs to be addressed. I really think we need to have 
prohibitions extended even more. There's always an excuse as to 
why you have to use asbestos in certain things--brake linings 
or various things--and I just think we need to do more to cope 
with the threat.
    So, if you have some thoughts, please give them to us. In 
the meantime, we'll work together, and see if we can devise 
some report language which holds the EPA's feet to the fire.

                             CLEAN AIR ACT

    Senator Tester. Thank you, Madam Chair.
    Senator Feinstein. Thank you, Senator.
    Madam Administrator, if you regulate greenhouse gases, does 
the Clean Air Act give you discretion to decide which type of 
pollution sources should be prioritized for regulation? And if 
so, do you agree that the EPA should focus its resources on 
setting regulations for very large sources, instead of small 
ones?
    And if you do, what would you consider the large sources to 
be? The most priority sources?
    Mrs. Jackson. Yes, I believe there is flexibility in the 
Clean Air Act that allows for sensible regulatory approaches, 
as opposed to these maximalist approaches that we hear people 
talking about.
    Obviously, before the agency would finalize any 
regulations, it would propose those regulations, along with its 
legal thinking on the issue. I know a lot of legal minds have 
been brought to bear on how much flexibility is in the Clean 
Air Act. We currently believe that there's flexibility that 
allows us to approach the worst and biggest sources first.
    So, the answer to your second question is yes, we would use 
common sense. As we do in other regulatory programs, we would 
start with the big sources, before we would look to solve----
    Senator Feinstein. Well, what would those big sources be?
    Mrs. Jackson. Primarily sources over 25,000 tons per year, 
and the reason I say that is because that's what we're going to 
measure under our greenhouse gas emissions rule. Those are 
utilities, those are refineries, those are the big chemical 
plants and processes that are already regulated under the Clean 
Air Act.
    Senator Feinstein. We'd also include the utilities?
    Mrs. Jackson. Utilities, and we've already talked about 
mobile sources, cars, et cetera.
    Senator Feinstein. Right.
    Mrs. Jackson. Those are the two big sectors. 
Transportation, cars, and utilities account for well over half 
of the greenhouse gas emissions in our country.
    Senator Feinstein. Right.
    Okay, I understand that the California waiver is being 
considered by the EPA in the context of a broader effort to 
coordinate the setting of Federal Corporate Average Fuel 
Economy standards, known as CAFE, with Clean Air Act greenhouse 
gas emissions standards.
    I was the author of this latest CAFE bill, the 10 over 10--
10 mileage--10 gallons per mile improvement over 10 years, 
which actually became the law, which was--we all felt--a very 
substantial achievement. But this process should be 
coordinated, it seems to me, with that area. How do you plan to 
do this?
    Mrs. Jackson. I agree. Thank you for your work on this 
issue so far, Madam Chair. The National Highway Traffic Safety 
Administration (NHTSA) statute and the Clean Air Act are not 
identical statutes. They get at different issues. One of the 
challenges has been to coordinate two statutes that weren't 
necessarily made to work together, but in some ways overlap, in 
terms of the fact that they have profound impact on the 
domestic and international auto manufacturing industry.
    My staff has been working awfully hard with NHTSA staff 
understanding where we have identical or overlapping mandates, 
where we might have different ones, and coming up with a 
coordinated approach.
    The President has said that he wants one road map, if you 
will for the auto industry, so that they don't feel as though 
they have to please NHTSA and then try to figure out what that 
means, in terms of meeting the requirements of the Clean Air 
Act.
    Senator Feinstein. Do you believe you have the authority 
that you need to affect this coordination?
    Mrs. Jackson. Yes, so far----
    Senator Feinstein. NHTSA is NHTSA, you know, they can be--
--
    Mrs. Jackson. Well, in President Obama's administration, 
NHTSA might be NHTSA, but we all work together. We have been 
doing that.
    We feel as though right now we're having very productive 
conversations--not only with NHTSA, but with auto 
manufacturers. Obviously, we are one piece of the White House/
auto task force set of issues, and right now we do feel as 
though our Clean Air Act authorities--while they require us to 
be proactive, and require us to look at carbon, we can work in 
coordination with NHTSA.
    Senator Feinstein. And you think you can maintain high 
standards by working in coordination? That they won't, kind of, 
dumb these standards down?
    Mrs. Jackson. You know, I believe that I don't really have 
that choice. I've taken an oath to uphold the Clean Air Act. I 
have to look at standards which, at the end of the day, would 
meet the requirements of the Clean Air Act, if we were indeed 
regulating under the Clean Air Act.
    So, I don't see that working with NHTSA in any way dilutes 
that responsibility. I don't see it resulting in unduly lenient 
standards. It means that we have to do the really hard work of 
working together, and that's what's been going on.
    Senator Feinstein. I'm very pleased to hear you say that, 
because I agree with you. And I think you truly do have a 
Federal mandate. And unless we're willing to open the Clean Air 
Act and diminish that responsibility, you clearly have that 
responsibility, at least in my view.
    Mrs. Jackson. Okay, thank you.
    Senator.

                    CLEAN AIR INTERSTATE RULE (CAIR)

    Senator Alexander. Thank you, Madam Chair.
    Continuing the line of thinking that--as I heard you and 
the Administrator talking, if the EPA were to proceed on 
carbon--well, first, is there any reason you need to wait until 
we figure carbon out, in order to move on sulfur, nitrogen, and 
mercury. Can you move ahead on a CAIR fix is my question?
    Mrs. Jackson. Yes, I believe we can, and the only thing I 
would say is that it is reasonable. One of the reasons 
regulations are important is that they give certainty to 
business, they give certainty to investment, and so I'm sure 
many investors in utilities would like to see the whole answer, 
not just piecemeal, but you can move on the CAIR piece, and 
it's very important.
    Senator Alexander. And then if I heard you right, the two 
of you, there was some talk about common sense, and picking 
large segments of carbon to approach first.
    So, I've thought of looking at this, and I'm one who 
believes global warming is an issue and that man is making a 
big contribution, and that it's one problem to solve, but we 
shouldn't jump off the cliff.
    It seemed to me that a logical way to approach it would be 
smokestacks, tailpipes. Smokestacks are 40 percent of it--coal 
plants--we already regulate them, we know what we're doing 
there.
    Tailpipes are vehicles--that's 70 percent of carbon. The 
so-called economy-wide proposals that we were considering in 
the Congress only get to 80 or 85 percent, and they introduce 
an enormous amount of complexity and surprises--particularly 
for a regulatory agency, which would have a hard time 
evaluating the complexity of this economy.
    If you were to proceed, wouldn't it be wise to start with 
coal plants, and with a low-carbon fuel standard, perhaps for 
tailpipes?
    Mrs. Jackson. Well, we're giving lots of thought to the 
issue of regulation when and if we proceed with regulation. We 
are standing on the side, though, and also watching with great 
optimism and hope, the actions of Congress right now.
    There are things that a market-based solution does offer 
you. They harness, in a different way the power of the 
marketplace to place a price on carbon, that can unleash a 
variety of investments. Everything from renewable energy to 
energy efficiency, to low carbon fuel standards, to controls on 
carbon, to investments in ways to offset carbon.
    There is a broadness to it, and I don't know that we need 
to decide one or the other. It is a fact that transportation 
and the utility sector--I think my number is somewhere closer 
to 60 percent, you said 70 percent--are the majority of 
domestic greenhouse gas emissions.
    Senator Alexander. Yeah, but of carbon, it's 70--40 and 30, 
I believe, if I'm right.
    The big difference, though, between cap-and-trade on sulfur 
and cap-and-trade on the whole economy today--there are two big 
differences. One is, we had a technology, we knew what to do 
with sulfur in 1991, and we don't know what to do with carbon.
    And second, then we were talking about a market of a few 
billion dollars, and now we're talking $100 billion a year. So, 
we could make a big mistake, here, and run jobs overseas, 
overnight, if we're not careful, it seems to me.
    So, how could you impose a mandate to get rid of--that 
would put a moratorium, basically, on coal plants, when we're 
not building nuclear plants, and renewable energy, if we 
tripled it, will only amount to 7 or 8 percent? Those are the 
consequences of administrative decisions, and how do we deal 
with not having a technology to deal with carbon?
    Mrs. Jackson. The technology conundrum is an interesting 
one. I would say the following: we had a technology to deal 
with sulfur. What we learned is that once there was a market-
based program, that technology proved to be much cheaper, and 
much easier to deploy, commercially, than we previously 
thought.
    The estimates for the SO<INF>2</INF> trading program and 
the impact on the economy were much higher than they proved to 
be.
    I'm persuaded by having spoken to Secretary Chu over at 
Energy. I remember the work I did on carbon capture as part of 
gas plant when I was a summer employee. We can capture carbon 
from streams. It's the sequestration part, it's where to put it 
that we need to do a bit of work on.
    Secretary Chu believes that with the right amount of 
investment, and the market push to make that a technology that 
people will spend time and money on perfecting and 
commercializing, it will happen.
    I just wanted to address one other thing you said, Senator, 
because I think it's so important--there cannot be a global 
warming program that is predicated on the assumption that coal 
is gone. In fact, this whole exercise is about putting in place 
a regulatory feature so that coal can be part of the mix. It is 
a domestic energy source that the President has said is crucial 
for us, it breaks our dependence on foreign sources of fossil 
fuel and energy, in part, and it is part and parcel of the 
question, if you will, that does indeed require very careful 
consideration.
    Senator Feinstein. I think one thing, if I may, it's very 
interesting is whether you're going to be able to develop 
products from carbon. There is an experiment now doing on in 
California at Moss Landing, I think the company is Scolera, 
something like that, where they are effectively using carbon to 
build building blocks, and having some degree of success. It's 
an experimental program, but I think things like that are very 
interesting to watch.
    And, you know, human ingenuity can came up with a lot of 
options, so that should be interesting.
    Do you have any further questions?
    Senator Alexander. I have a couple, I don't want to keep 
you, though.
    Senator Feinstein. Well, perhaps I'll excuse myself, and 
hand you this.
    Senator Alexander. You going to trust me?
    Senator Feinstein. I trust you implicitly.
    Senator Alexander. For 5 minutes? Do you mind staying 5 
more minutes so I can ask----
    Senator Feinstein. Let me just say thank you very much.
    Mrs. Jackson. Thank you so much.
    Senator Feinstein. Thank you.
    Senator Alexander. Thank you, Dianne.
    Senator Feinstein. Thank you.

                             COAL ASH SPILL

    Senator Alexander [presiding]. Madam Administrator, I thank 
the chairman for her courtesy that's very, very, very nice of 
her. I have two questions. One is--involves the coal ash spill.
    There is a contamination in the Tennessee River, downriver 
from where this spill was, of a radioactive element called 
cesium. This is an element that was left over from the bomb 
work during World War II at Oak Ridge. And it came down through 
the Clinch River, into the Tennessee River, and it's down in 
the sediment. It's not harmful, as long as it's in the 
sediment. It could be harmful to fish and swimmers if it's 
disturbed. The spill is up river--up another river, the Emery 
River.
    So, my concern is, that the EPA and TVA make certain that 
in any work done in the Emery River and the Tennessee River, 
that we take great care not to disturb the sediment where the 
cesium is, because that could be dangerous to people in the 
area, and very unhealthy. Are you aware of the cesium issue and 
will you take steps to make certain that EPA and TVA don't 
disturb the cesium in the sediment during the TVA coal ash 
cleanup?
    Mrs. Jackson. I was aware that there was some concern about 
historic radiological contamination. That is a very valid 
concern, having worked on several dredging projects. That is 
always the issue, whether you mobilize contamination that had 
best been left immobile. The remedy selection process at that 
site, associated with the TVA's spill, will be very important 
in making sure we consider that issue. You have my commitment 
that the EPA will consider that as we move forward.

                           ACID RAIN PROGRAM

    Senator Alexander. Thank you, Madam Administrator.
    My other question is this, I mentioned earlier, the success 
of the acid rain program and how that's helped the Eastern 
United States and it's helped the Great Smoky Mountains in our 
Eastern Tennessee area, which has a special problem with air 
quality. Currently there are 12 streams in the Great Smoky 
Mountain National Park, which is the most polluted National 
Park in terms of air quality. These 12 streams violate the 
Clean Water Act because of low pH levels. In other words, 
they're too acidic. And, these come from the acid deposits from 
the air, of course, from coal plants and industrial emissions. 
Is there any way to relate the Clean Water Act and the Clean 
Air Act in some way, so that we create goals for States or 
areas or regions, to try to make sure that as we clean up the 
air, we clean up the water as a result--as we work on acid 
rain?
    It may be that simply a strong set of CAIR rules on sulfur 
and nitrogen and mercury is sufficient. But we have seen, over 
the last 15 years, that even though that cleaned up a lot of 
the Eastern United States, there are some spots left. This is 
one of the hot spots.
    So my question is, could we take a look at a program that 
relates clean air and clean water, such modeled after the 
regional haze rule, that might help us set objectives for 
cleaning up the streams in the Great Smoky Mountain National 
Park or in other areas where there's a similar problem?
    Mrs. Jackson. I think that is, Senator, a fascinating idea 
and suggestion. I think that, clearly air deposition is causing 
exceedances for water, so those two programs have to be 
assessed together. There's probably a need for additional 
monitoring. There's probably a need for those assessments to be 
done in a coordinated fashion. I'm persuaded by an announcement 
even yesterday for the Chesapeake, where we talked about the 
fact that the Chesapeake Bay, waters have exceedingly high 
levels of nitrogen.
    One of the things we're going to do, on a Federal level, is 
put in place a CAIR rule to reduce the airborne component of 
that deposition. I think you're talking about a similar 
strategy for the Great Smoky National Park, and I think that 
that makes perfect sense. I'd love to work with you on that.
    Senator Alexander. Good, I look forward to working on that. 
There's always the difficulty of imposing new standards on 
regions that can't meet those standards----
    Mrs. Jackson. Absolutely.
    Senator Alexander. Because it may not be their fault that 
they have a particular concentration of acid rain. So that 
would have to be balanced. I'm not interested in imposing on 
the State of Tennessee a standard it by itself can't meet, but 
some sort of cooperative arrangement or relationship between 
clean air and clean water might at least put a spotlight on the 
problem and make sure that when we take another look back at 
the clean air rules 10 years from now, that we look back and 
see that we've made progress on those 12 streams in the Great 
Smokies and other areas which are hot spots for acid rain 
deposition.

                                BIOFUELS

    Mrs. Jackson. Thank you.
    Senator Alexander. Now I have one little question. I know 
you have an increase of $5 million in the budget for research 
for advanced biofuels. What's that about? Is that its 
relationship to clean air or are you trying to figure out a way 
to make better advanced biofuels?
    Mrs. Jackson. I believe that is the money that is going to 
EPA's Ann Arbor lab, does that sound right? We have additional 
money, but I have $13 million there to assess the impact of 
higher percentage biofuel blends. You might know that right now 
we have public comment open, for example, on whether you can 
have more than 10 percent ethanol in gasoline.
    Senator Alexander. Yeah.
    Mrs. Jackson. There's been a request for higher blend 
levels. We have----
    Senator Alexander. So it's probably not so much to invent a 
better biofuel, but to see what the impact of the biofuel might 
be.
    Mrs. Jackson. Yes, exactly, Senator. Life-cycle analysis, 
the impact on production, is to make sure that in our Ann Arbor 
lab, that those fuels can be accepted without voiding 
warranties or causing impacts to performance of engines, and 
the risks and tradeoffs of biofuels use in production.
    Senator Alexander. Thank you.
    I appreciated, too, your comments on coal. Tennessee 
doesn't produce much coal, but the more I've studied these 
issues--and you and I have talked about this--we have our 
Energy Committee and we have our Environment Committee, you 
know, and really all the issues are at the intersection of the 
two. And we don't really have many good ways of looking at 
them, so the more I've studied it--almost the Holy Grail of our 
ability to have low-cost energy, so we don't hurt people and 
run jobs away, is having a way to deal with coal, which I'm so 
anxious to get those first three pollutants dealt with.
    And as far as the carbon, my hunch is--I just think it 
ought to be a priority. I told Dr. Chu that I thought the next 
Nobel Prize in science ought to be reserved for whoever figured 
out what to do with carbon from existing coal plants. I doubt 
it will be sticking it in the ground. I think there's too much 
of it. I think there's going to be some biological or chemical 
reaction, but I have no way of knowing. But I hope that stays a 
real priority for you, because we have very practical decisions 
to make over the next 10 years. I mean, do we build more coal 
plants? I mean, we're basically encouraging, by our rules, the 
utilities to keep open old dirty coal plants. And by the 
prospect of more rules, we're discouraging new, more efficient, 
cleaner coal plants.
    We're not building nuclear very much yet, renewable doesn't 
amount to much yet, and so we may find ourselves in a real 
dilemma, in terms of jobs and the economy. So keeping a focus 
on coal, I think, is very important.

                     ADDITIONAL COMMITTEE QUESTIONS

    I thank you for staying and I thank the chairman for 
trusting me with the gavel. I look forward to working with you.
    Mrs. Jackson. Thank you so much.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                             CAP AND TRADE

    Question. Your budget includes a new $5 million initiative to 
prepare for a possible cap-and-trade program. How does the 
Environmental Protection Agency (EPA) plan to use those funds?
    Answer. This funding will support EPA in providing technical 
assistance and expertise to advise the administration and Congress on 
effective, environmentally sound approaches for a Greenhouse Gas (GHG) 
cap and trade program. One major area of effort will be offsets, which 
are a key component of reducing cap and trade costs while leveraging 
reduction opportunities in uncovered sectors. With these resources, EPA 
will develop protocols and methodologies that can accurately account 
for emission reductions from major offset categories, assess and 
develop options for monitoring and verifying the effectiveness of 
offset projects, and analyze and develop options to encourage early 
reductions prior to the start of a Federal regulatory program such as 
cap and trade. EPA also will assess the potential for existing and 
proposed mechanisms under the United Nations Framework Convention on 
Climate Change, such as Reduced Deforestation and Degradation (REDD), 
to provide cost reductions while guaranteeing environmental 
credibility.
    Question. Are these efforts needed if Congress enacts another type 
of regulatory framework other than a cap-and-trade program?
    Answer. The efforts the Agency proposes to undertake in fiscal year 
2010 are critical even if an approach other than cap and trade is 
ultimately pursued. Specifically, monitoring and verification, 
establishment of baselines and performance standards, and assessment of 
State, Federal, and international programs are directly relevant to 
policies such as taxes, incentives, and technology-based policies. Work 
on the international offsets and REDD issues will be needed given the 
importance of finding effective ways to support developing country 
action to reduce GHG emissions.

                             GREENHOUSE GAS

    Question. The fiscal year 2009 Interior bill included a mandate for 
EPA to publish a final mandatory reporting rule for greenhouse gases no 
later than June 26. Time is of the essence--we need this rule to be in 
place so that we are able to gather 2010 data. Is EPA on track to 
promulgate the final rule by the June 26 deadline?
    Answer. The proposal, signed on March 10, 2009, indicates that the 
data collection would start on January 1, 2010, with the first reports 
to EPA coming in on March 31, 2011. Given the schedule and the fact 
that the comment period ends on June 9, 2009, the Agency will not have 
the final rule in the Federal Register on June 26, 2009.
    Question. If not, will you commit to finalizing the rule so that 
data collection can start by January 1?
    Answer. The Agency is working towards the implementation dates in 
the proposal and recognizes the importance of collecting 2010 data.
    Question. Your fiscal year 2010 budget request includes $17 million 
to implement the greenhouse gas reporting rule, which is an $11 million 
increase over the funds I added to the fiscal year 2009 budget. I'm 
very pleased to see EPA acknowledge the importance of this rule and 
make it a funding priority. How will your budget request be used?
    Answer. EPA will devote the fiscal year 2010 President's budget 
resources to: (1) the data management system, (2) implementation, and 
(3) verification activities for the Mandatory Reporting Rule. The work 
on the data systems will include: determining requirements; designing 
the database, software, and user interface, with stakeholder input; and 
developing training tools for stakeholders. The implementation 
activities will include: developing guidance and training materials to 
assist the regulated community; responding to inquires from affected 
facilities on monitoring and applicability requirements; and developing 
tools on applicability. The verification work will include: developing 
and finalizing verification approaches and working with regional staff 
on verification, compliance assistance, and training. Also, a portion 
of the budget request will be dedicated to intramural costs to manage 
the program (e.g., salaries and travel).
    Question. Will this increase ensure that the agency has all the 
funds it needs for 2010 to implement this rule?
    Answer. Fiscal year 2010 will be a critical year for preparing for 
the implementation of the GHG Reporting Rule, and the $17 million in 
our budget request will provide us with the resources to complete the 
intensive preparation process associated with an economy-wide program.

                         STATE REVOLVING FUNDS

    Question. Your budget requests a $1.7 billion increase to the Clean 
Water State Revolving Fund (CWSRF), for a total of $2.4 billion, and a 
$671 million increase to the Drinking Water State Revolving Fund 
(DWSRF), for a total of $1.5 billion.
    Given the current fiscal climate, does EPA believe that States will 
have any difficulty meeting the required 20 percent match for these 
additional funds?
    Answer. The $1.7 billion increase to the CWSRF and the $671 million 
increase to the DWSRF reflect the urgent need for investment in 
America's aging infrastructure. If appropriated, such an increase will 
result in a nearly $475 million increase in match required, spread 
across all States and Puerto Rico, for an average of $9.3 million per 
State. EPA has not received any indication that States will have 
difficulty providing this match. States have indicated to EPA that the 
level of State Revolving Fund (SRF) increases in the fiscal year 2010 
request will help them in addressing their infrastructure needs. As a 
note, States have several options for obtaining their SRF program 
match. In addition to appropriating funds for the programs, States have 
the ability to sell bonds in order to obtain the match.

                   GREAT LAKES RESTORATION INITIATIVE

    Question. Your budget request contains $475 million for the Great 
Lakes Restoration Initiative--that's a 692 percent increase compared to 
the funding that Congress enacted for Great Lakes cleanup in fiscal 
year 2009. Given that there are other important water bodies across the 
country, why did EPA choose to focus so much of your budget increase on 
the Great Lakes clean-up rather than spreading the funds to multiple 
areas?
    Answer. The Great Lakes hold 20 percent of the world's fresh 
surface water, have over 10,000 miles of coastline, and drain about 
200,000 square miles of land. They are a source of drinking water for 
over 30 million people in the United States and Canada. Roughly 10 
percent of the United States population and more than 30 percent of the 
Canadian population live in the Great Lakes basin, and its fishery is 
valued at more than $5 billion, providing jobs and recreation 
opportunities to millions of people annually.
    However, there are significant environmental stressors to the Great 
Lakes: invasive species are multiplying causing food web disruptions, 
birds are dying from avian botulism, algal mats are fouling beaches, 
and nutrient loadings have re-emerged as an environmental issue. The 
Great Lakes Restoration Initiative focuses on a set of intensifying 
stresses, which the Great Lakes scientific community has concluded are 
placing the Great Lakes at or beyond a tipping point, causing 
widespread ecosystem breakdowns. Actions taken now could prevent 
irreversible damage and will save money over the long term.
    Funding for the Great Lakes now can also be seen as an investment 
in a part of the country in great need of such investment, particularly 
in light of the problems facing the automotive industry. This 
additional funding will create green collar jobs and help protect human 
health and the environment in a region facing economic difficulties.
    Finally, Great Lakes restoration is required under a binational 
agreement (the Great Lakes Water Quality Agreement with Canada), 
section 118 of the CWA, and an Executive Order. In recent years, the 
Federal Government and stakeholders have developed a program that is 
ready to move forward in a coordinated way to protect and restore the 
Great Lakes. The Initiative builds upon 5 years of work of the Great 
Lakes Interagency Task Force and stakeholders, guided by a Great Lakes 
Regional Collaboration Strategy. The Initiative provides needed Federal 
funding to move this program forward in a well-orchestrated, well-
coordinated effort among multiple Cabinet-level departments to 
implement critical protection and restoration actions.
    Question. How can EPA be sure that such a large increase in funds 
for the Great Lakes will be spent in a timely fashion? Do you have 
specific projects that have already been prioritized for funding?
    Answer. The 2005 Great Lakes Regional Collaboration Strategy 
identifies a need of $20 billion over 5 years to address Great Lake 
environmental problems. For the most part, the environmental problems 
facing the Great Lakes, as well as their solutions, are well known and 
have been identified in existing documentation, such as the Great Lakes 
Regional Collaboration Strategy, Remedial Action Plans, and Lakewide 
Management Plans.
    In developing the Great Lakes Restoration Initiative Proposed 2010 
Funding Plan, Federal agencies drew from this existing work with 
stakeholders to identify ready-to-go programs and projects to jump 
start restoration in 2010. Where possible, the Initiative will use 
existing programs of the Federal agencies. To be ready to go, EPA is 
considering the feasibility of a request for proposals this summer in 
advance of the appropriation. Federal agencies have begun work on 
Interagency Agreements for the transfer of funding. The proposed 
administrative language accompanying the President's request will 
simplify transfers and receipt of funding by other Federal agencies and 
will provide EPA with new grant implementation authority.
    Programs prioritized for funding are identified in the ``Agency 
Actions'' document, which is available from: http://www.epa.gov/
grtlakes/glri/index.html.

                 SAN FRANCISCO BAY--DELTA WATER QUALITY

    Question. I am very pleased that EPA included $5 million in your 
budget to continue competitive grants to improve water quality in the 
San Francisco Bay. EPA's recognition that the Bay needs to be a 
priority is a big step forward toward the health of the Bay. However, I 
believe that the Federal Government also needs to do more to help the 
Sacramento and San Joaquin River Delta. Specifically, can you tell me 
how EPA is currently involved in the Bay-Delta to restore habitat and 
improve water quality? What more could EPA be doing?
    Answer. EPA has a long history of efforts to protect and restore 
the Sacramento and San Joaquin River Delta water quality. We will 
continue to work cooperatively with our agency partners and 
stakeholders to restore the critical Bay-Delta ecosystem while 
recognizing the competing needs of all stakeholders. In the next year, 
our activities will focus on supporting the efforts of the State and 
Regional Boards. We will also be a participant and a reviewer on 
several major National Environmental Policy Act documents. In all 
forums, we will continue to work with the fishery agencies to ensure an 
integrated approach (the CWA and Endangered Species Act) to water 
quality restoration. Following is a summary of EPA activities taking 
place in the Sacramento and San Joaquin River Delta. Additional 
priorities include support for coordinated monitoring and assessment; 
enhanced support of core programs such as standards, Total Maximum 
Daily Loads (TMDLs), and permitting to drive water quality restoration; 
improved science, including assessments of nutrients and climate change 
impacts; and agricultural initiatives including pesticide impact models 
and environmental stewardship assistance to growers.
    CalFed and Delta Vision.--One of the more ambitious efforts to 
protect and restore San Francisco Bay-Delta water quality was the 
CALFED Bay Delta Program, a State-Federal partnership initiated in 1995 
(following the Bay Delta Accord and EPA's promulgation of Delta water 
quality standards) to address water management and ecosystem protection 
in the entire watershed. The first phase (2000-2007) of a 30-year 
program ended in 2007. In response, in 2006, the Governor commissioned 
a blue-ribbon panel which recently delivered a ``Delta Vision Strategic 
Plan.''
    Bay Delta Conservation Plan.--As the Delta Vision process was 
underway, major water districts dependent on the Delta began a Habitat 
Conservation Planning effort (the Bay Delta Conservation Plan, or BDCP) 
with the California Department of Fish and Game, United States 
Department of the Interior (DOI) (Fish and Wildlife Service and Bureau 
of Reclamation) and National Oceanic and Atmospheric Administration 
Fisheries to address endangered species concerns. The BDCP aims to make 
sufficiently large changes in the Delta to reverse the decades of 
decline of several beneficial uses and add stability to water 
operations in the Delta. The State and Federal agencies are preparing a 
Draft Environmental Impact Report/Statement on the BDCP; EPA has agreed 
to be a cooperating agency. Our involvement to date has been largely to 
promote and support scientific review of the various actions proposed. 
We will become more involved as the Environmental Impact Statement is 
drafted and projects (which will need CWA 404 permits) are designed.
    Pelagic Organism Decline (POD).--Long-term sampling identified a 
dramatic decline of a number of fish populations beginning in 2001, 
including both endangered species and sport fisheries. EPA played a key 
role, working with the Interagency Ecological Program, in a new and 
broad scientific effort to identify causes of the crash. The POD 
investigation is in its fourth year and has been supported by over $20 
million in State and Federal monies. A number of water quality and 
habitat degradation concerns that have been identified are now being 
addressed by the State and regional boards. Ammonia discharges from 
wastewater treatment plants combined with low and constant flow regimes 
appear to have favored the spread of toxic blue-green alga, invasive 
clams and jellyfish over the former highly valued fish community.
    Water Quality Standards and TMDLs.--We are supporting the State and 
Regional Board on a number of activities to review and/or develop new 
water quality standards and to develop and implement TMDLs. In 2008, 
the State Water Resources Control Board and the Central Valley and Bay 
Regional Water Quality Control Boards developed a Bay Delta Strategic 
Workplan, which encompasses their ongoing efforts, as well as new work 
deemed necessary to address the Delta ecosystem decline. Some of the 
more significant efforts include: (1) review of the 2006 Water Quality 
Control Plan; (2) development of a Central Valley Drinking Water 
Policy; (3) TMDLs to address impairments in the Delta from mercury, in 
the Central Valley from pesticides, in the San Joaquin River from 
dissolved oxygen and salinity; and (4) implementation of TMDLs 
throughout the watershed.
    Monitoring.--There currently is no coordinated system for 
collecting and managing water quality data for the Delta and the 
Central Valley. EPA has been an advocate for a system similar to those 
in the Bay and on the South Coast in order to improve the quality, 
efficiency, access and use of information for planning and management. 
There are three monitoring initiatives that together cover the full 
Bay-Delta watershed: the Delta Regional Monitoring Program (RMP) 
directed by the Central Valley Regional Board; the Sacramento River 
Watershed RMP, initiated a decade ago through EPA earmarks; and the San 
Joaquin Basin Monitoring Strategy (underway through an EPA grant, in 
conjunction with the Regional Board). Technical coordination comes 
through shared support of the State's Surface Water Ambient Monitoring 
Program. All three efforts have inventoried existing monitoring and are 
aligning monitoring and assessment within the Delta watershed to 
address key issues.
    San Joaquin River Restoration.--Congress recently enacted 
significant legislation that directs restoration of the San Joaquin 
River from Friant Dam to the confluence of the Merced River, to 
implement the historic agreement reached by water users and 
environmental groups in 2006. Restoration of such magnitude will have 
ramifications for Delta water management. The Bureau of Reclamation is 
preparing a Draft Environmental Impact Statement for this program and 
we are participating as a cooperating agency, working to both leverage 
the effort for improved water quality monitoring and ensure the 
downstream water quality regulatory regime supports the planned 
reintroduction of fisheries.

  RIALTO-COLTON BASIN--NATIONAL PRIORTIES LIST/WATER REPLACMENT ORDERS

    Question. The fiscal year 2009 Interior appropriations bill was 
accompanied by report language supporting the listing of Rialto-Colton 
Basin in San Bernardino County, California to the National Priorities 
List (NPL) to remediate groundwater contamination, and encouraging EPA 
to issue water replacement orders against the parties responsible for 
trichloroethylene and perchlorate contamination of the groundwater 
basin to remain in effect until clean drinking water supplies are fully 
restored to the City of Rialto, City of Colton, West Valley Water 
District, and the Fontana Water Company.
    What progress has been made toward listing the Rialto-Colton Basin 
in San Bernardino, California, on the National Priorities List?
    Answer. EPA proposed listing the ``B.F. Goodrich'' site on the NPL 
in September 2008, which includes the ``160-acre area'', part of the 
Rialto-Colton Basin, and groundwater contamination originating on the 
160-acre area. EPA generally publishes proposed and final NPL listings 
in the Federal Register in the fall and spring and anticipates 
completing our review of the comments received before the fall listing 
update.
    Question. What progress has been made by EPA to issue water 
replacement orders?
    Answer. Based on current information, EPA has determined that water 
replacement orders are not warranted at this time as the impacted 
communities have a clean supply of drinking water. As we proceed with 
our work on the B.F. Goodrich Site, we will continue to evaluate all of 
our options and will provide for meaningful public involvement in our 
proposed remedy.
    Question. How does the EPA intend to address the Rialto-Colson 
Basin, including concrete steps that can be taken this year toward 
clean-up or water replacement?
    Answer. EPA is developing a proposal for an interim groundwater 
cleanup project in the Rialto-Colton basin, a groundwater extraction 
system within known contaminant source areas, which will go out for 
public comment later this year. We anticipate that the treated 
groundwater from this project will be provided to the local water 
purveyors for use in the regional, potable water supply system. In 
addition, we expect to spend $3 million this year to carry out and/or 
oversee four field investigations needed to develop a comprehensive 
remedy for the site. These investigations, which are currently 
underway, include the installation of up to six new groundwater 
monitoring wells to help define the extent of groundwater 
contamination, soil testing at a disposal pit used by the Goodrich 
Corporation in the 1950s and 1960s, and soil testing at locations where 
West Coast Loading Corporation operated at the site in the 1950s. Data 
from some of these investigations will be used to help develop a final 
groundwater remedy. If this final remedy includes additional 
groundwater extraction and treatment systems down gradient from the 
interim groundwater cleanup project described above, it is anticipated 
that treated water from such a remedy would also be made available to 
local water purveyors.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                           MOUNTAINTOP MINING

    Question. There is tremendous concern in West Virginia about the 
future of coal.
    I agree that we should find better ways to mine coal and reduce its 
environmental impact. However, I do not accept that job losses in the 
coal industry are an inevitable consequence of cleaner air and water. 
We must forge a consensus and strike a balance between increasing 
environmental controls, and preserving the livelihoods of West 
Virginians.
    I believe clean coal can be a ``green'' energy.
    The Environmental Protection Agency (EPA) is reviewing section 404 
permits for certain mining operations, and has invoked its authority 
under section 404(c) of the Clean Water Act (CWA) to prohibit permits 
related to surface mining operations for the filling of waters in the 
United States.
    Question. What is your long-term plan for regulating mountaintop 
mining?
    Answer. On February 13, the U.S. Court of Appeals for the Fourth 
Circuit issued an opinion upholding four permits issued by the U.S. 
Army Corps of Engineers (the Corps) under section 404 of the CWA for 
coal mine operations in the Appalachian region. Because of active 
litigation in the 4th Circuit challenging the issuance of these Corps 
permits for coal mining, the Corps has been issuing far fewer permits 
in West Virginia and elsewhere in the Appalachian coal fields since the 
litigation began in 2007. As a result, there is a significant backlog 
of permits under review by the Corps.
    EPA identified only a small subset, 6 of some 50 actions that were 
pending near-term authorization, with which the Agency had serious 
environmental concerns. EPA is not raising concern with the majority of 
pending permits which represents mines with significantly fewer 
environmental impacts. The Corps is expected to continue to issue 
permits for these surface coal mining operations that do not raise 
significant environmental concerns.
    EPA and the Corps are developing coordination procedures to help to 
ensure that permit decisions will be made consistent with the law, 
sound science and in a timely manner that avoids further delay. We 
agree with you that the permit process can protect jobs and the 
environment.
    Question. How long do you think mountaintop mining will be 
sustainable under the CWA?
    Answer. We recognize that mountaintop removal coal mining can be a 
highly destructive form of surface coal mining that buries streams and 
impacts downstream water quality. We also understand that much of the 
most accessible coal reserves have already been mined leaving surface 
coal mining methods such as mountaintop removal often the only mining 
practice that is economically practical to mine remaining reserves. As 
you have very thoughtfully recognized, there are opportunities to 
improve coal mining practices such as mountaintop removal to 
significantly reduce adverse environmental impacts, We look forward to 
working with the coal industry to implement these improvements to make 
surface coal mining practices cleaner and more environmentally 
responsible and, as a result, sustainable for years to come.
    Question. What criteria has the EPA established for section 404 
permits? Is the EPA providing specific guidance to the mining industry 
to ensure the permitting process does not stall?
    Answer. EPA has identified a set of environmental factors which we 
are using to help guide the review and evaluation of pending permit 
actions for surface coal mine operations. Our goal is to ensure a 
transparent, understandable, and predictable permit process. Based on 
these criteria, EPA is focusing its comments on mine proposals with the 
most significant environmental impacts. The key factors which we are 
considering include:
  --Length of stream impacts, in particular impacts to perennial 
        streams and critical headwater streams;
  --Number of valley fills;
  --Geographic location of the proposed action, and assessment of 
        impacts based on watershed level information, considering 
        factors such as percentage of area mined, percentage of 
        forested area, interior forest, percentage of urban area, and 
        stream density/quality, index of biotic integrity, threatened 
        and endangered (T&E) species;
  --Cumulative effects, particularly in consideration of the number of 
        proposed new mines proposed for given watershed;
  --Existing water quality and potential for water quality impacts 
        downstream of fill, in particular selenium and conductivity as 
        specific constituents of concern; and the potential impacts to 
        biotic integrity and T&E species in high quality and state 
        outstanding resources waters;
  --Adequacy of alternative analysis; and
  --Adequacy of mitigation.
    Question. In reviewing section 404 permits, what consideration is 
given to postmining economic development?
    Answer. Postmining land use considerations were included by 
Congress in the Surface Mining Control and Reclamation Act of 1977 to 
encourage the effective use of lands for economic development after 
mining is complete. These considerations have been particularly 
important in southern West Virginia counties in desperate need of jobs 
and economic development opportunities. EPA will continue to work with 
States like West Virginia to encourage environmentally responsible 
mining that protects both jobs and the environment.
    Question. Your agency has been talking with the Army Corps of 
Engineers and Council on Environmental Quality at the White House about 
coal matters. During those meetings, what consideration is being given 
to the well-being of places like rural communities of West Virginia, 
where job retraining is not a realistic option because coal jobs, if 
lost, are unlikely to ever be replaced by other jobs?
    Answer. Interagency discussions regarding coal mining have very 
much considered the well-being of rural communities throughout 
Appalachia, including West Virginia. EPA has been impressed by the 
efforts of folks in Mingo County, West Virginia, for example, who have 
worked with us to reduce the adverse environmental impacts of coal 
mining while showing great leadership in identifying postmining land 
uses that create jobs, stimulate the local economy, and create 
opportunities for the young people of the area to remain in Mingo 
County. We believe that the Mingo County Redevelopment Commission is a 
model of how Federal, State, and local governments can work together to 
ensure environmentally responsible mining moves forward and creates 
sustainable, long-term opportunities for communities and their young 
people.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

                       INDIRECT LAND USE CHANGES

    Question. I was encouraged that the proposed Renewable Fuel 
Standard (RFS) rule you signed on May 5, 2009, takes aggressive action 
in increasing the supply of renewable fuels to 36 billion gallons per 
year (GPY) by 2022, as required by the Energy Independence and Security 
Act of 2007 (EISA).
    The revised statutory requirements of EISA also included new 
definitions and criteria for both renewable fuels and the feedstocks 
used to produce them, including new greenhouse gas emissions (GHG) 
threshold. I am concerned that the Environmental Protection Agency 
(EPA) is taking into account indirect land use changes (ILUC) when 
determining GHG emissions associated with renewable fuels production. 
Given the complexity and uncertainty of ILUC, along with its analytical 
limitations in determining lifecycle GHG for biofuels, how is the EPA 
working to ensure this requirement be fair, consistent, objective, and 
scientifically defensible as it moves forward with the rulemaking 
process?
    Answer. EPA recognizes that it is important to address questions 
regarding the science of measuring indirect impacts, particularly on 
the topic of uncertainty. For this reason, EPA has developed a 
methodology that uses the very best tools and science available, 
utilizes input from experts and stakeholders from a multitude of 
disciplines, and maximizes the transparency of our approach and our 
assumptions in the proposed rule.
    Our analysis relies on peer-reviewed models, including 
comprehensive agricultural sector models, such as the Food and 
Agricultural Policy Research Institute model that have been used widely 
to analyze the impacts of numerous agricultural sector policies 
including recent farm bills. The Agency also has used the most current 
estimates of key trends in agricultural practices and fuel production 
technologies and has reviewed the growing body of literature on 
lifecycle analysis and indirect land use change.
    EPA has ensured that there will be multiple opportunities to 
solicit public and expert feedback on the proposed approach. In 
addition to the formal comment period on the proposed rule, on June 10 
and June 11, EPA held a 2-day workshop focused specifically on 
lifecycle analysis during the comment period to assure full 
understanding of the analyses conducted, the issues addressed, and the 
options that are discussed. EPA provided a thorough description of its 
methodology and sources of information used in conducting the lifecycle 
assessment as included in the proposal. Over 200 persons representing 
industry, academia, and other stakeholders and experts participated. 
During this workshop, EPA responded to questions from participants, and 
importantly, also heard presentations from stakeholders and experts 
including several which specifically addressed indirect land use 
assessment. The information received during the workshop will be part 
of the official record for the rule and will be useful as EPA works to 
develop its final rule analysis. The Agency expects that the 
information provided during this workshop, from EPA and others, will 
help ensure that it receives submission of the most thoughtful and 
useful comments to this proposal and that the best methodology and 
assumptions are used for calculating GHG emissions impacts of fuels for 
the final rule.
    Additionally, although our lifecycle analysis relies almost 
entirely on peer-reviewed models and data, between this proposal and 
the final rule, the Agency will conduct additional peer-reviews of key 
components of our analysis, including the use of satellite data to 
project the type of future land use changes, methods to account for the 
variable timing of GHG emissions, and how the several models the Agency 
has relied upon are used together to provide overall lifecycle GHG 
estimates.
    Question. Furthermore, if it could be demonstrated that the U.S. 
corn ethanol industry was capable of hitting its EISA target (actually 
a ``cap'') of 15 billion GPY by 2015 without the need for breaking up 
or deforesting any ``virgin'' soil, would it not be true that the ILUC 
``penalty'' would by definition have to be zero?
    Answer. No, this is not the case. Even if there was no new land 
converted between now and when the 15 billion gallons volume 
requirement was met, there could still be an indirect impact on 
agricultural production and the economy from the production of 15 
billion gallons. The indirect impacts of renewable fuel production are 
the result of interactions throughout the global agricultural commodity 
markets. Measuring these indirect impacts requires the use of economic 
models. These models capture the impacts of increased biofuel feedstock 
production on all crop production, not just biofuel feedstock. This 
allows EPA to determine secondary agricultural sector impacts, such as 
crop shifting and changes in demand due to commodity price changes. To 
estimate the impacts of biofuels feedstock production on international 
agricultural and livestock production, the Agency used the same 
methodology to assess both direct and indirect impacts including those 
due to land use change. For example, even if there was no measured land 
use change in the United States, there could be land use change 
internationally due to the impact increased ethanol production has on 
crop prices and exports.
    However, regardless of the outcome of the lifecycle analysis, there 
is not expected to be any impact on the ability for corn ethanol to 
comply with the RFS2 requirements. When Congress set aside 15 billion 
gallons for conventional biofuels that need to meet the 20 percent GHG 
threshold, they also included ``grandfathering'' provisions that would 
exempt certain renewable fuel facilities from the threshold 
requirements. There is expected to be more than 15 billion gallons of 
corn ethanol alone that will be produced by these grandfathered 
facilities, more than satisfying the mandated volume.

                        E15 LCEAN AIR ACT WAIVER

    Question. Following up on the EPA's new proposed RFS rule to 
increase the supply of renewable fuels to 36 billion gallons by 2022. 
There is concern the Clean Air Act's limitation on gasoline-ethanol 
blends has created a ``blend wall,'' the point where the RFS 
requirement exceeds the ability to blend gasoline with an ethanol 
content in excess of 10 percent (known as ``E10''), which currently 
accounts for 98 percent of ethanol usage.
    Estimates indicate the market will hit the blend wall by 2012--and 
some industry experts warn that it could come into play as early as 
next year--when the E10 market reaches saturation at approximately 12.5 
to 14 billion gallons of ethanol, causing substantial harm to our 
biofuels industry while also putting the RFS at risk.
    As you know, section 251 of the 2007 Energy bill permits the 
Administrator of the EPA to waive the Clean Air Act limitation on 
ethanol content in gasoline provided such a waiver does not affect the 
emission control systems in vehicles. It is my understanding multiple 
studies have demonstrated that E15 will not cause or contribute to the 
failure of any emission control devices or systems in vehicles; this 
includes legacy vehicles and small nonroad engines. What information 
and studies are you looking at in evaluating whether or not to grant 
the waiver and permit ethanol-gasoline blends of up to 15 percent?
    Answer. The EPA is taking an active role in implementing the new 
renewable fuel mandates set out by Congress. The ethanol waiver request 
we received from Growth Energy on March 6, 2009, is part of this 
effort. A notice of its receipt was published in the Federal Register 
on April 21, 2009. Comments are due by July 20, 2009. We recognize the 
urgency of the ``blend wall'' and the impact the waiver would have in 
delaying its arrival.
    The issues raised by the waiver request are very important and 
complex. We anticipate a significant number of comments from a wide 
range of stakeholders in response to our request for public comment. In 
addition, we continue to work closely with the Department of Energy and 
the Department of Agriculture on this issue. We have gathered data on 
testing done by others and us, but those data are limited. This 
includes the studies that Growth Energy included in their waiver 
request. We expect additional data to be submitted as part of the 
comment period as well, and that all available data will be available 
to interested stakeholders. The Department of Energy is conducting 
comprehensive testing that is estimated to be completed in about a 
year. We will take these comments and any other relevant information 
into consideration, and, using the best available technical data, make 
a determination on the waiver request.
    Question. Have you given consideration to an interim step of 
permitting gasoline blends of up to 12 or 13 percent in order to ensure 
that the biofuels industry is not harmed by the fast-approaching blend 
wall?
    Answer. With respect to allowing a 12 or 13 percent ethanol blend 
in the interim, we have assessed our authority under the act to take 
such an action outside of the waiver process. This would require a 
revision of the ``substantially similar'' interpretive rule, which 
defines the limits for the use of oxygenates in gasoline, such as 
ethanol, without the need for a waiver. The current ``substantially 
similar'' rule limits ethanol to about 7 percent by volume. Ethanol 
received a waiver in 1978 to allow 10 percent by volume. We have 
concluded that in order to have a reasonable basis to revise the 
``substantially similar'' rule to 12 or 13 percent, we would need 
similar data to that for a waiver. We are not aware of any significant 
data at 12 or 13 percent to review. Thus, absent additional data, the 
most expedient means of assessing the impacts of greater percent 
ethanol in gasoline is to consider the waiver request we received from 
Growth Energy.

                          ENDANGERMENT FINDING

    Question. Last month you signed a proposal finding that the current 
and projected concentrations of six key GHG in the atmosphere threaten 
the public health and welfare of current and future generations.
    Do you see the proposed rule granting the EPA the authority to 
regulate (GHG) under the Clean Air Act absent congressional action? 
Also, what is the EPA's understanding of the Supreme Court's finding in 
Massachusetts v. Environmental Protection Agency?
    Is it the position of EPA that the finding directed the agency to 
regulate CO<INF>2</INF>, or just that the EPA has the authority to 
regulate CO<INF>2</INF>?
    Answer. The Supreme Court in Massachusetts vs. EPA ruled that 
Carbon Dioxide (CO<INF>2</INF>) and other Greenhouse Gases (GHGs) fall 
within the Clean Air Act's definition of ``air pollutant,'' and that 
EPA must determine whether such emissions meet the endangerment test of 
section 202(a) or explain why available science is not sufficient to 
make a determination. The Supreme Court also concluded that if the 
Agency determines that emissions of those GHGs from new motor vehicles 
and new motor vehicle engines cause or contribute to air pollution that 
may reasonably be anticipated to endanger public health or welfare, 
then EPA is required to regulate CO<INF>2</INF> and several other GHGs 
under Clean Air Act section 202(a) (the provision at issue in the 
case).
    In response to the Supreme Court's decision, EPA has issued 
proposed endangerment findings under section 202(a) of the Clean Air 
Act for CO<INF>2</INF> and several other GHGs, and proposed cause or 
contribute findings for the emissions of those GHGs from new motor 
vehicles. As proposed findings, they do not provide EPA with the 
authority to regulate. Only if EPA decides, after considering public 
comment, to issue final findings that new motor vehicle GHG emissions 
meet the endangerment and cause or contribute tests of section 202(a), 
will EPA have authority to issue GHG emission standards under that 
section for motor vehicles. For EPA to issue GHG emission standards for 
other types of mobile or stationary sources, the Agency would have to 
conduct rulemakings under the specific Clean Air Act provisions that 
authorize regulation of those sources. Clean Air Act provisions vary in 
the determinations EPA must make in order to regulate.
    Question. What measures is EPA taking to account for the economic 
consequences?
    Answer. If EPA decides, after considering public comment, to issue 
final findings that GHG emissions meet the endangerment and cause or 
contribute tests of Clean Air Act section 202(a), Administrator Jackson 
will make decisions about using the Clean Air Act. In particular, 
section 202(a) provides the Administrator with the discretion to 
determine the content and timing of motor vehicle emission regulations. 
That section also directs the Administrator to make regulatory 
decisions based on cost, technological feasibility, and other relevant 
factors. Many provisions of the Clean Air Act provide similar 
discretion and direction to consider costs and other factors in 
deciding how (and in some cases, whether) to regulate under those 
provisions.
    As noted above, EPA would assess the costs of any proposed GHG 
controls as part of the rulemaking process required to issue such 
regulations under section 202(a), and the public would have an 
opportunity to comment on EPA's proposal, including its cost estimates.
    Administrator Jackson has stated that if EPA embarked on Clean Air 
Act regulation of GHGs, it would focus on the largest emission 
categories, such as motor vehicles and power plants. In an advance 
notice published in the Federal Register last year, the Agency examined 
many issues concerning the potential use of the Clean Air Act to 
regulate GHGs, including the potential for such regulation to result in 
the application of the act's permitting programs to GHGs. EPA is 
currently considering the public comments received in response to the 
notice on how the permitting programs might be tailored for GHGs to 
avoid or minimize economic consequences for smaller sources. Addressing 
small business concerns with potential GHG regulation under new 
legislation or the Clean Air Act is a priority for the Agency.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                         GULF OF MEXICO FUNDING

    Question. When I look at the funding provided by the U.S. 
Environmental Protection Agency (EPA) to its Gulf of Mexico Program 
(the EPA Program Office charged with facilitating collaborative actions 
to protect, maintain, and restore the health and productivity of the 
Gulf of Mexico in ways consistent with the economic well-being of the 
region), I see huge disparities in funding levels provided to the Gulf 
relative to other great water bodies like the Great Lakes, Chesapeake 
Bay, and Puget Sound. In fiscal year 2009, for example, the Great Lakes 
Program Office received $57 million in support, and the Gulf of Mexico 
Program Office received only $4.6 million. Such disproportionate 
funding has been the case since the Gulf Program's inception in 1988. 
It seems particularly unfair and counterproductive to the mission of 
EPA to consistently underfund such a critical and productive region.
    Can you please help me to better understand the reasoning behind 
this practice, particularly with the advancement of the President's 
initiative to spend $475 million on the Great Lakes?
    Answer. EPA has undertaken a number of strategic geographic 
initiatives throughout the country. The Agency has traditionally 
exercised the Administrator's limited authority under CWA 104(b)(3) to 
establish and maintain cooperative issue assessment and coordination of 
response planning support to these multi-state ecosystem initiatives. 
As the assessments evolve and the critical issues and tactical response 
plans are developed, Congress has, in many cases, enacted specific 
legislation through the CWA to help underwrite the execution of these 
recovery and/or conservation Action Plans (i.e., the CWA Amendment 
forming the Great Lakes Program; the Great Lakes Legacy Act; the CWA 
Amendment forming the Chesapeake Bay Program).
    The Gulf is confronted by a number of environmental issues that 
threaten both the ecology and economic sustainability of the 
surrounding coastal communities and, the Nation. The initiation and 
support over the last few years of the Gulf States Governors Alliance 
has been instrumental in rapidly advancing the action plan framework 
for this region. We understand that the Governors Alliance is preparing 
to release the next 5-year action plan on June 10, 2009.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                        COMBINED SEWER OVERFLOWS

    Question. Combined Sewer Overflows (CSOs) are an enormous problem 
in communities with older water infrastructure. In the late 19th to 
early 20th century, many communities built single sewer systems for 
both sewage from homes and storm water runoff from streets and roofs. 
During large storms these systems are overwhelmed. The excess storm 
water mixes with the raw sewage and flows into nearby bodies of water. 
Each year nearly 1 billion gallons of raw sewage from CSOs puts the 
public at risk for disease and compromises the integrity of water 
bodies throughout the Nation. How will EPA use the proposed increases 
in water and wastewater infrastructure revolving loan funds to 
eliminate this serious threat to our Nation? Since this is such a big 
problem, do you believe a dedicated fund just for CSOs is warranted?
    Answer. The Environmental Protection Agency (EPA) agrees that CSOs 
cause environmental and public health problems. Since the CSO Policy 
was finalized in 1994, EPA and the States have made substantial 
progress working with municipalities to develop long-term control plans 
to eliminate or reduce the overflows and the environmental and public 
health threat. The Clean Water State Revolving Fund (CWSRF) is designed 
to allow State programs the flexibility to direct funds to those 
projects that will have the greatest impact, considering factors 
including public health and environmental protection. EPA believes that 
funding CSO controls through the existing CWSRF would be more efficient 
than establishing a separate CSO grants program, and that the 
significant increase proposed in the CWSRF by the President will help 
address high priority CSO problems.

                  NATIONAL MERCURY MONITORING NETWORK

    Question. I have long believed that we, as a Nation, are not paying 
sufficient attention to the dangers posed by mercury to our children 
and, in general, to all of our citizens. When I have spoken to experts 
in Maine about this problem, I have learned that each new scientific 
study finds more mercury in the environment and more affected species 
than the previous study. In 2006, when EPA released a major new mercury 
regulatory rule, its Inspector General found that data for mercury 
pollution models was severely lacking and recommended EPA implement a 
national mercury monitoring network. In 2007, to address this need for 
better data, I introduced the Comprehensive National Mercury Monitoring 
Act to ensure that we have the information we need to make decisions 
necessary to protect our people and environment. I intend to pursue 
this bill again this year.
    Do you support implementing a National Mercury Monitoring Network?
    Answer. Addressing mercury emissions is a complex and multi-faceted 
issue that necessitates evaluation of all media, including air, water, 
sediments, fish, and wildlife. EPA recognizes the pressing need for 
comprehensive, long-term mercury monitoring and has made significant 
and tangible progress toward establishing a national mercury monitoring 
network. EPA is collaborating with Federal, State, tribal agencies, and 
academic partners to provide a comprehensive understanding of mercury 
in the environment using limited existing data and monitoring 
capabilities.
    In 2003, EPA co-sponsored a workshop with the Society for 
Environmental Toxicology and Chemistry to develop a national program to 
track the changes resulting from reductions in mercury emissions in the 
U.S. Detailed recommendations for a comprehensive national mercury 
monitoring program emerged from this workshop and were published in a 
peer reviewed journal article (2005) and a subsequent book (2007).
    In response to the workshop recommendations, EPA collaborated with 
the National Atmospheric Deposition Program (NADP) membership of 
Federal agencies, States, tribes, academic institutions, industry, and 
other organizations to launch a new, coordinated network for monitoring 
mercury in the atmosphere. At present, 20 atmospheric mercury 
monitoring stations are participating in NADP to provide high 
resolution, high quality atmospheric data. NADP plans to offer a 
publicly accessible database of long-term atmospheric mercury 
measurements.
    In 2008, EPA co-convened a workshop to design a comprehensive and 
integrated national mercury monitoring network--MercNet. The workshop 
included approximately 50 experts from Federal agencies (U.S. 
Environmental Protection Agency, U.S. Geological Survey, National 
Oceanic and Atmospheric Administration, U.S. Fish and Wildlife Service, 
National Park Service, etc.), State and tribal agencies, Biodiversity 
Research Institute, NADP, industry, and other institutions. Workshop 
scientists agreed on a goal and major design elements for a national 
mercury monitoring program, including a national distribution of 
approximately 20 intensive sites, to understand the sources, 
consequences, and trends in U.S. mercury pollution.
    EPA is committed to working with its partners, as resources permit, 
to develop a comprehensive, long-term mercury monitoring program which 
would contribute much needed information on how the environment is 
responding to changing uses and emissions of mercury.
    Question. What specific steps will the EPA take in the coming year 
to protect us against this persistent and dangerous neurotoxin?
    Answer. The Administrator has announced that EPA will be developing 
a Clean Air Act section 112(d) standard for electric utility steam 
generating units addressing all hazardous air pollutants emitted from 
these units including mercury. The Agency is currently in settlement 
negotiations with the plaintiffs in a mandatory duty lawsuit concerning 
the timing for completing this rule and does not have a schedule for 
developing the regulation at this time.
    Mercury is also among the pollutants that the Agency is, or will 
be, regulating under section 112(d) through rules for other industries 
and sectors (e.g., for the Portland cement, industrial boilers, and 
medical waste incinerators).

                     MID-LEVEL ETHANOL FUEL BLENDS

    Question. Ms. Jackson, on March 6, you were presented with a 
request for a waiver from the Clean Air Act for mid-level ethanol fuel 
blends. Subsequent to that request, a large group of interested 
organizations, including the Sierra Club, Public Citizen, and the 
American Lung Association, wrote a letter asking you to deny that 
request. They argued that these fuels have not yet received sufficient 
study to ensure that they will not pose hazards to the environment, 
health, and safety. In fact, I continue to receive complaints from my 
constituents about the performance of the current ethanol fuel blend in 
snowmobiles, boat engines, and chainsaws. These constituents have no 
fuel choices since, in Maine, only a 10 percent ethanol gasoline fuel 
blend is available at our gasoline pumps and I am very concerned about 
any potential increases in the amount of ethanol allowed in gasoline. 
Given the administration's support for policy based on good science, 
will you make certain that all of the data needed to answer questions 
about the merit of these new fuels are analyzed before permitting them 
into commerce?
    Answer. EPA is carefully considering the waiver request it received 
from Growth Energy on March 6, 2009. A notice of its receipt was 
published in the Federal Register on April 21, 2009. Comments were 
requested on a number of issues. The comment period closes on July 20, 
2009.
    The issues raised by the waiver request are very important and 
complex. The Agency is aware of the concerns raised by the 
organizations that you noted. These include the impact of E15 on 
nonroad engines such as those in snowmobiles, boats, and chain saws. As 
anticipated, the Agency is receiving a significant number of comments 
from a wide range of stakeholders in response to our request for public 
comment. In addition, the Agency continues to work closely with the 
Department of Energy (DOE) and the Department of Agriculture on this 
issue. DOE is conducting a significant amount of testing. EPA will take 
the public comments, test data, and any other relevant information into 
consideration. The Agency will use the best available technical data 
and make a determination on the waiver request based on good science.
                                 ______
                                 

                          SUBCOMMITTEE RECESS

    Senator Alexander. The meeting is recessed.
    [Whereupon, at 11:39 a.m., Wednesday, May 20, the hearing 
was recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
